<html>
<title> - THE DEEPWATER HORIZON OIL SPILL CHAIN OF COMMAND: AN EXAMINATION OF INFORMATION SHARING PRACTICES DURING A SPILL OF NATIONAL SIGNIFICANCE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  THE DEEPWATER HORIZON OIL SPILL CHAIN OF COMMAND: AN EXAMINATION OF 
 INFORMATION SHARING PRACTICES DURING A SPILL OF NATIONAL SIGNIFICANCE

=======================================================================

                             FIELD HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 12, 2010

                               __________

                           Serial No. 111-74

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
64-700                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6106110e210214121509040d114f020e0c4f">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman
Peter A. DeFazio, Oregon             Gus M. Bilirakis, Florida
Bill Pascrell, Jr., New Jersey       Anh ``Joseph'' Cao, Louisiana
Al Green, Texas                      Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                   Tamla T. Scott, Director & Counsel
                          Nikki Hadder, Clerk
                    Michael Russell, Senior Counsel
               Kerry Kinirons, Minority Subcommittee Lead


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2

                               WITNESSES
                                Panel I

Col. Michael D. Edmondson, Deputy Secretary, Superintendent of 
  State Police, Louisiana Department of Public Safety & 
  Corrections:
  Oral Statement.................................................     4
  Prepared Statement.............................................     8
Mr. Frank V. Hibbard, Mayor, Clearwater, Florida:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11

                                Panel II

Adm. Peter Neffenger, Deputy National Incident Commander, United 
  States Coast Guard, Department of Homeland Security:
  Oral Statement.................................................    35
  Joint Prepared Statement.......................................    38
Ms. Juliette Kayyem, Assistant Secretary for Intergovernmental 
  Affairs, Department of Homeland Security:
  Oral Statement.................................................    40
  Joint Prepared Statement.......................................    38

                               Panel III

Mr. Ray Dempsey, Vice President of Strategy, BP America:
  Oral Statement.................................................    61
  Joint Prepared Statement.......................................    63


  THE DEEPWATER HORIZON OIL SPILL CHAIN OF COMMAND: AN EXAMINATION OF 
 INFORMATION SHARING PRACTICES DURING A SPILL OF NATIONAL SIGNIFICANCE

                              ----------                              


                         Monday, July 12, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                   New Orleans, LA.
    The subcommittee met, pursuant to call, at 2:18 p.m., in 
the Louisiana Supreme Court, 400 Royal Street, New Orleans, 
Louisiana, Hon. Christopher P. Carney [Chairman of the 
subcommittee] presiding.
    Present: Representatives Carney, Green, Jackson Lee, 
Richardson, Bilirakis, and Cao.
    Mr. Carney. The Subcommittee on Management, Investigations, 
and Oversight will come to order.
    The subcommittee is meeting today to receive testimony on 
``The Deepwater Horizon Oil Spill Chain of Command: An 
Examination of Information Sharing Practices During A Spill of 
National Significance.'' I would like to thank all of you for 
joining us today.
    We are here today to examine the command structure, 
including roles and responsibilities for the response to the 
Deepwater Horizon oil spill. We will examine whether the chain 
of command is being properly followed by the more than 38,000 
personnel responding to the spill and ascertain how information 
flows from the Unified Area Command in New Orleans through the 
Incident Command Centers in Houma, Louisiana, Mobile, Alabama 
and St. Petersburg, Florida to State and local entities.
    The most recent Government estimate projects approximately 
60,000 to 100,000 barrels of oil are leaking from the damaged 
well each day. Based on estimates of the Flow Rate Technical 
Group, the spill has become the largest in U.S. waters, 
eclipsing the 1989 Exxon Valdez several times over.
    Prior to the Deepwater Horizon spill, the largest release 
of oil from a platform accident was the Alpha Well 21 Platform 
A disaster in 1969, also known as the Santa Barbara oil spill 
which released about 100,000 barrels of oil. The Deepwater 
Horizon passed that mark in the first couple of days.
    Although there have been seven spills of National 
significance exercises, or SONS, the magnitude of the Deepwater 
Horizon oil spill is so much greater spill that the 
preconceived command structure may need to be revised. It is 
hard to believe that anyone could have imagined the devastation 
on the level that we are seeing today.
    Secretary Napolitano's Spill of National Significance 
declaration triggered the incident command system set forth in 
the National response framework and dictated from that point 
forward a unified command structure established by the Federal 
Government would be in place to coordinate the response to the 
spill. There are more than a dozen Federal agencies involved in 
the Deepwater Horizon oil spill chain of command. Confusion 
surrounding the chain of command for the Deepwater Horizon oil 
spill is exacerbated by the number of Government entities, 
including Federal, State, local, and Tribal that compromise the 
unified response. Moreover, the magnitude of the present spill 
has caused many of the Federal Government's best-laid plans to 
become inoperable under the present circumstances. Past 
exercises yielded a blueprint for the Deepwater Horizon 
response. Unfortunately, the fact that the source has yet to be 
contained and oil is continuing to flow into the Gulf has 
prevented those in the chain of command from shifting solely to 
a clean-up operation and caused a much more complicated 
situation than had been previously imagined.
    Today, more than anything else, I want to hear how smoothly 
information is running up and down the chain of command. I 
would like to hear constructive ways that that information flow 
can improve. We need to know where the bottlenecks are so that 
they can be eliminated. I want to know if local and State 
entities are getting all the resources and the information they 
are requesting as well as the Federal Government and the 
decision-makers getting all the information they request.
    As much as I hope nothing like this ever happens again, 
none of us in this room are that naive. Sooner or later our 
country will face another environmental disaster. We would be 
remiss as a Nation if we did not thoroughly reflect on our 
response to this incident so that we could be better prepared 
for the next one.
    I would like to thank all the witnesses for their 
participation and I look forward to your testimony.
    The Chairman now recognizes the Ranking Member of the 
subcommittee, the gentleman from Florida, Mr. Bilirakis, for an 
opening statement.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    As you know on May 1, I, along with a couple of other 
Members of this subcommittee requested hearings to consider the 
Department of Homeland Security and the Coast Guard's 
information-sharing and dissemination efforts, Coast Guard 
staffing and resources, and the oil spill's impact on the Gulf 
region. I am very pleased that the subcommittee--thank you, Mr. 
Chairman--is meeting to consider these issues today.
    It has been more than 80 days since this unprecedented 
disaster began, and unfortunately there is no end in sight. Oil 
has now reached the shores in Texas, Louisiana, Mississippi, 
Alabama, and in my home State of Florida, damaging the 
environment and wildlife and adversely impacting the fishing 
and tourism industries, the lifeblood of many Gulf cities and 
towns.
    Like many Members of Congress, I am very concerned about 
the Unified Command's efforts to share information with State, 
local, and private sector officials. I have heard from numerous 
constituents representing both the public and private sectors, 
who are experiencing difficulty in receiving vital information 
about the impact of the oil spill and recovery efforts. It is 
for this reason I am interested in learning from our Federal 
witnesses about how they provide information to their State, 
local, and private sector partners and also how they respond to 
the concerns of these partners.
    I hope that this hearing will serve to further inform BP 
and Federal responders of the needs and concerns of the 
residents of the Gulf region that have been so terribly 
impacted. I am also interested in hearing about BP and Federal 
efforts to rapidly deploy resources and consider new 
alternative technologies to combat this spill. We need to 
consider all available options, including offers of 
international assistance. The Unified Command must rapidly 
consider and respond to local requests for resource deployment. 
We cannot let bureaucracy get in the way of response efforts.
    It was reported last week in the Washington Post that BP 
has received approximately 120,000 proposals for technology 
that could address the spill. I am concerned about reports of 
delays in approving and deploying promising technology that 
could help stop the further spread of oil. How are the 
Government and BP processing these proposals to ensure that 
credible solutions are deployed in a timely manner?
    As we progress further into what NOAA has projected to be 
an active--extremely active, excuse me--Atlantic hurricane 
season, I would like to learn more about the potential impact 
of a hurricane on oil spill response and clean-up efforts, 
along with hurricane preparedness efforts.
    With that, I would like to welcome our witnesses here 
today. You all have a very important job ahead of you and the 
Members of this subcommittee stand ready to assist you.
    Thank you, Mr. Chairman. I yield back the balance of my 
time.
    Mr. Carney. Thank you, Mr. Bilirakis.
    Other Members of the subcommittee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    We have unanimous consent that Representatives Jackson Lee 
and Richardson be able to sit and question the witnesses.
    Without objection, the gentlewoman from Texas, 
Congresswoman Sheila Jackson Lee, who chairs the committee's 
Subcommittee on Transportation Security and Infrastructure 
Protection; and the gentlewoman from California, Congresswoman 
Laura Richardson, who chairs the committee's Subcommittee on 
Emergency Communications, Preparedness, and Response are 
authorized to sit on the dais for the purpose of questioning 
the witnesses during the hearing today.
    Hearing no objection, it is so ordered.
    Today's hearing will be divided into three panels. The 
first panel is comprised of State and local witnesses. The 
second panel will be comprised of Federal Government 
representatives and the third panel we will hear from will be 
from industry. I welcome each of the witnesses.
    Our first witness is Colonel Michael D. Edmondson. Colonel 
Edmondson was appointed as the 25th superintendent of the 
Louisiana State Police in January 2008 by Governor Bobby 
Jindal, who of course is an alumni of this committee. He also 
serves as the Deputy Secretary of Public Safety Services and is 
responsible for an agency of more than 2,800 employees and a 
budget of nearly $0.5 billion. In his role as Deputy Secretary, 
Colonel Edmondson oversees the Louisiana Highway Safety 
Commission, the Office of Management and Finance, the Office of 
Motor Vehicles, the Office of State Fire Marshal, the Louisiana 
Oil Spill Coordinator's Office and the Liquefied Petroleum Gas 
Commission.
    Colonel Edmondson is a career State police officer, having 
joined the organization in 1981. He earned his bachelor's of 
criminal justice in 1980 from Louisiana State University. He 
also attended graduate school there and is a graduate of the 
prestigious FBI National Academy in Quantico and the FBI 
National Executive Institute.
    Our second witness is the Honorable Frank V. Hibbard, Mayor 
of Clearwater, Florida. Mayor Hibbard was elected in March 
2002. He is a graduate of Florida State University with 
bachelor of science degrees in business and economics as well 
as an MBA.
    He served as the volunteer executive to the United Way of 
Pinellas County and the Board of Corporate Partners at H. Lee 
Moffitt Cancer Center as well as a Board Member of the Jim 
Moran Institute for Entrepreneurial Study at Florida State 
College of Business. Mayor Hibbard is a graduate of the Class 
of 2000 Leadership Pinellas and the Class of 2007 Leadership 
Florida.
    He currently serves as Vice Chairman of the Tampa Bay Area 
Regional Transportation Authority, or TBARTA, and on the Board 
of the Pinellas County Metropolitan Planning Organization, the 
Ruth Eckerd Hall, Salvation Army, and Clothes for Kids. Mayor 
Hibbard is a member of the Florida League of Mayors and the 
Mayors Council of Pinellas County.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now ask each witness to summarize 
his statement for 5 minutes, beginning with Colonel Edmondson.

     STATEMENT OF MICHAEL D. EDMONDSON, DEPUTY SECRETARY, 
SUPERINTENDENT OF STATE POLICE, LOUISIANA DEPARTMENT OF PUBLIC 
                      SAFETY & CORRECTIONS

    Col. Edmondson. Thank you, Mr. Chairman and Members of the 
committee; thank you for inviting me to discuss the information 
sharing atmosphere that exists between the Command Group in the 
State of Louisiana during this oil spill of National 
significance.
    Although I am here to discuss issues related to the oil 
spill caused by the explosion and subsequent sinking of the 
Deepwater Horizon, I would like to first take a moment to 
remember the 11 individuals who lost their lives on the night 
of April 20, 2010. The loss of life is tragic and should remain 
at the heart of everything we do. I ask the committee to 
remember these individuals and their families in your thoughts 
and prayers. We do every day in Louisiana.
    The Louisiana Oil Spill Coordinator's Office (LOSCO) was 
moved to the Department of Public Safety in July 2009 by an act 
of the Louisiana legislature. As you know and stated 
previously, located within the Public Safety Services is the 
Office of State Police, State Fire Marshal, Emergency Response, 
and Hazardous Materials. These offices contain specialized 
units such as crisis response and hazardous materials 
management that were thought by the legislature to be 
compatible with the core mission of LOSCO. From its inception 
in 1991 until July 2009, LOSCO was organizationally under the 
Office of the Governor. The move to place it under the umbrella 
of a large State agency provided a backbone of support and 
resources to assist LOSCO in carrying out its mission. The 
Department of Public Safety is able to provide administrative, 
technical, and logistical support to LOSCO at levels not seen 
previously. The original numbers were seven; with the advent of 
bringing them into the umbrella of State Police and Public 
Safety, they have the ability to have 50-plus individuals at 
their command when needed.
    In 1995, LOSCO and its partners in State government created 
a plan that describes how Louisiana agencies will respond 
during oil spills. Called the State Contingency Plan, this 
document helps clarify and streamline response procedures. 
LOSCO and its partners are continually working to further 
refine the State Contingency Plan. The results of this effort 
provide a more detailed chain of command for oil spill 
cleanups, including a description of each agency's 
responsibilities in accordance with the Incident Command 
System.
    The State Contingency Plan is augmented by the Area 
Contingency Plan. There are three of those in Louisiana; one 
for each United States Coast Guard Marine Safety Office 
jurisdiction: MSO New Orleans, Morgan City, and Port Arthur.
    The plans describe response strategies for targeted areas, 
thereby providing an essential layer of preparation for oil 
spills. A committee guides each plan's development and 
revisions. The committees are composed of representatives from 
industry, environmental groups, and planners from Federal, 
State, and local government. The committees meet regularly to 
update oil spill response plans, identify sensitive resources 
and develop site-specific response strategies. The meetings are 
co-chaired by LOSCO and the United States Coast Guard.
    Louisiana responds to any emergency through the Unified 
Command process. Through this process, Governor Bobby Jindal 
receives input from the involved State agencies and directs 
their responses. The Unified Command Group is established by 
statute and is defined as the strategic decision-making body 
for emergencies in this State with the Governor serving as the 
unified commander. The complex array of traditional and 
emerging threats and hazards demands the application of a 
unified and coordinated approach to emergency incident 
management not only during emergencies, but during day-to-day 
operation of State government. Governor Jindal established the 
UCG membership by Executive Order. It is composed of 16 members 
and I am a member of the Unified Command Group as well as the 
Oil Spill Coordinator. We have met every day and this being day 
84 since the oil spill, we have met every day with the Governor 
to go over what is going on in the State of Louisiana. We have 
been flown to places around the State that have been impacted 
by the oil spill. The current Executive Director of the Oil 
Spill Coordinator's Office is with me today, Mr. Roland Guidry. 
He will be here for any questions you might have. He and his 
Deputy Director, Dr. Karolien Debussche, are here with me also 
and will communicate with me as they do on a daily basis as to 
the status of the response and issues that may be communicated 
to them through local, State, and our Federal partners. LOSCO 
staff prepares and disseminates reports to me and my command 
staff as to the status of the responses and the numbers and 
assignments of staff assigned to the Deepwater Horizon event 
responses.
    Unified Command Group meetings are held daily in response 
to this disaster. Also in Louisiana, our trustee meetings that 
are comprised of the Department of Environmental Quality, the 
Department of Natural Resources, Wildlife, and Fisheries, 
LOSCO, and Coastal Protection and Restoration, they meet every 
day as they look at the National disaster plan and damage 
assessment to the State of Louisiana. The Governor and cabinet 
members often present action items or requests for information 
to these representatives, who take such items back to the 
Incident Unified Command for review, response, and action.
    A Spill of National Significance was declared by the 
Secretary of the United States Department of Homeland Security 
on April 29. Governor Jindal then issued a State-wide 
declaration of emergency also on that same date. As the 
immediate emergency rescue missions ended, LOSCO engaged the 
Coast Guard and BP to begin normal oil spill response actions 
in accordance with the Federal Oil Pollution Act of 1990 and 
the Louisiana Oil Spill Prevention Act of 1991. It is crucial 
to note that under the Federal law, that being OPA 90, BP, as 
the responsibility party, is legally responsible for response 
and removal activities.
    As the magnitude of the oil spill grew--and as you know, on 
Day 1, there was a first report that came in there was no oil. 
Of course, there was maybe 1,000 barrels and then maybe 4,000 
barrels, then maybe 9,000, 15,000 and then 19,000 and now 
anywhere from 30- to 60,000 barrels a day--it became apparent 
that more defensive measures to protect the coastline were 
necessary and that there was time to implement those measures 
as the oil approached from 48 miles offshore. Local 
governments, concerned with the lack of protective measures in 
their parishes, developed more robust plans to counteract the 
approaching oil, but were frustrated with their inability to 
interact and participate in the response efforts. OPA 90 
imposes responsibility upon the responsible party to conduct 
response and removal activities with oversight from the United 
States Coast Guard for offshore spills. BP and the Coast Guard 
were rigidly, with little or no impact, executing an Area 
Contingency Plan and the State and local governments found it 
hard to influence those actions and to incorporate more recent 
analysis of what critical areas needed protection. 
Representatives from the State continued to engage the locals 
in preparing alternative response plans. These alternative 
response plans were then presented to BP/Coast Guard Incident 
Command, and vetted through the Planning and Operations 
subgroups. These plans were not adopted in full, but served as 
a framework for use by the Unified Command in protecting the 
coast from impact.
    A State whose territory is impacted by an oil spill does 
not have the authority to direct response activities. This 
stands in marked contrast to the emergency response framework 
for non-oil spill emergencies and disasters such as hurricanes, 
tornadoes, ice storms, and earthquakes, where State and local 
officials have the authority and are expected to take direct 
actions to protect life and property. Under OPA 90, it is the 
responsible party--in this case, BP--that has the authority to 
conduct response and cleanup activities while the Federal 
Government maintains ultimate authority. As the event continued 
into the first weeks, the Coast Guard incorporated the local 
governments into the response efforts, both to take advantage 
of their in-depth knowledge of the local area, and to adopt the 
detailed local response plans into the overall response effort.
    LOSCO representatives have maintained their interaction 
with local officials since the early days of this event. A 
designated State On-Scene Coordinator has been present in the 
Houma command center since its inception. Representatives of 
State agencies have been integrated into various levels of the 
Federal response to include the Houma Incident Command Post and 
the Unified Area Command which was in Robert, Louisiana and is 
now located here in New Orleans. Additionally, State employees 
have worked tirelessly with local officials to better 
coordinate resource requests and serve as an ombudsman for 
local government. Additionally, LOSCO engaged a full-time 
representative to enhance coordination with the parishes.
    The United States Coast Guard has stationed a liaison 
officer at the State Emergency Operations Center. The Army 
Corps of Engineers, United States Department of Interior, NOAA, 
and the Department of Interior and others have been actively 
engaged in the response to protect Louisiana's coastline.
    In conclusion, at this time, over 1,100 State personnel, 
including our National Guard, are involved in the response, 
both in the field and the Houma Command Center. The oil is the 
enemy and our response will remain firm and lines of 
communication will remain open.
    As of today, we need more skimmers to remove oil from the 
water, more boom to protect our shores, improved surveillance 
of oil so it can be removed from the water before it destroys 
more of our interior wetland. Most importantly, we need the 
Federal Government to pay attention to strategies for 
combatting this oil spill from those of us on the front line 
and to take action on them with the urgency this fight demands. 
If the Federal Government agrees this is a war, we need to see 
that they are in it to win it, as our Governor stated. He 
further states that our prayers continue to be with those on 
the coast and every Louisianan who is impacted by this spill. 
We are constantly amazed by the perseverance of our people in 
responding to this disaster. They are on the front lines every 
day turning fishing boats into defense ships, dragging boom to 
the oil to stop the oil and always coming up with more ideas to 
protect our land and waters.
    It is the same spirit of perseverance that strengthened us 
through hurricanes Katrina, Rita, Gustaf, and Ike. This same 
perseverance leaves no doubt in our mind that we will win this 
war against the oil spill and come back better than ever 
before.
    To the people of coastal Louisiana, we will stand with you 
and work along side you until every drop of oil is off our 
coast and out of our waters and all of our fisheries, our 
industry are 100 percent restored.
    I stand available for any questions at the conclusion. 
Thank you very much.
    [The statement of Colonel Edmondson follows:]

               Prepared Statement of Michael D. Edmonson
                             July 12, 2010

    Good morning. I am Colonel Mike Edmonson, deputy secretary of the 
Louisiana Department of Public Safety, Public Safety Services. Although 
I am here to discuss issues related to the oil spill caused by the 
explosion and subsequent sinking of the Deepwater Horizon, I would like 
us to first take a moment to remember the 11 individuals who lost their 
lives on the night of April 20, 2010. The loss of life is tragic. I ask 
the committee to remember these individuals and their families in your 
thoughts and prayers.
    Chairman Thompson and Members of this committee: Thank you for 
inviting me to discuss the information-sharing atmosphere that exists 
between the Command Group and the State of Louisiana during this Spill 
of National Significance.
    The Louisiana Oil Spill Coordinator's Office (LOSCO) was moved to 
the Department of Public Safety in July of 2009 by an act of the 
Louisiana legislature. Also located within the Public Safety Services 
are the Office of State Police and the State Fire Marshal. These 
offices contain specialized units such as Crisis Response and Hazardous 
Materials Management that were thought by the legislature to be 
compatible with the core mission of LOSCO. From its inception in 1991 
until July 2009, LOSCO was organizationally under the Office of the 
Governor. The move to place it under the umbrella of a large State-wide 
agency provided a backbone of support and resources to assist LOSCO in 
carrying out its mission. The Department of Public Safety is able to 
provide administrative, technical, and logistical support to LOSCO at 
levels not seen previously.
    In 1995, LOSCO and its partners in State government created a plan 
that describes how Louisiana agencies will respond during oil spills. 
Called the State Contingency Plan, this document helps clarify and 
streamline response procedures. LOSCO and its partners are continually 
working to further refine the State Contingency Plan. The results of 
this effort will provide a more detailed chain of command for oil spill 
cleanups, including a description of each agency's responsibilities in 
accordance with the Incident Command System. The State Contingency Plan 
is augmented by the Area Contingency Plan (ACP).
    There are three ACP's in Louisiana's coastal zone, one for each of 
the United States Coast Guard (USCG) Marine Safety Office (MSO) 
jurisdictions.
  <bullet> MSO New Orleans ACP
  <bullet> MSO Morgan City ACP
  <bullet> MSO Port Arthur ACP
    The plans describe response strategies for targeted areas, thereby 
providing an essential layer of preparation for oil spills. A committee 
guides each plan's development and revisions. The committees are 
composed of representatives from industry, environmental groups, and 
planners from Federal, State, and local government. The committees meet 
regularly to update oil spill response plans, identify sensitive 
resources, and develop site-specific response strategies. The meetings 
are co-chaired by LOSCO and the USCG.
    Louisiana responds to any emergency through the Unified Command 
process. Through this process, Governor Bobby Jindal receives input 
from the involved State agencies and directs their responses. The 
Unified Command Group (UCG) is established by statute and is defined as 
the strategic decision making body for emergencies in the State with 
the Governor serving as the unified commander. The complex array of 
traditional and emerging threats and hazards demands the application of 
a unified and coordinated approach to emergency incident management not 
only during emergencies but during day-to-day operations of State 
government. Governor Jindal established the UCG membership by an 
Executive Order. The UCG is composed of sixteen members. I am a member 
of the UCG as well as the Oil Spill Coordinator. The current Executive 
Director of the Oil Spill Coordinator's Office is Mr. Roland Guidry. He 
and his Deputy Director, Dr. Karolien Debusschere, are here with me 
today and communicate with me daily as to status of the response and 
issues that may be communicated to them through local, State, and 
Federal partners. LOSCO staff prepares and disseminates reports to me, 
and my command staff, as to the status of the response, and the numbers 
and assignments of staff assigned to the Deepwater Horizon event 
response.
    UCG meetings are held daily in response to this disaster. Present 
at these daily meetings are representatives from BP and the Coast Guard 
who brief the Group with what they represent to be the most up to date 
data available from the Command Groups in Houma and New Orleans. The 
Governor and cabinet members often present action items or requests for 
information to these representatives, who take such items back to the 
Incident Unified Command for review, response, and action.
    A Spill of National Significance was declared by Secretary of U.S. 
Department of Homeland Security on April 29, 2010. Governor Jindal 
issued a State-wide declaration of emergency also on that same date. As 
the immediate emergency rescue missions ended, LOSCO engaged the U.S. 
Coast Guard and BP to begin normal oil spill response actions in 
accordance with the Federal Oil Pollution Act of 1990 (``OPA 90'') and 
the Louisiana Oil Spill Prevention Act of 1991. It is crucial to note 
that, under the Federal law--OPA 90--BP, as the responsible party, is 
legally responsible for response and removal activities.
    As the magnitude of the spill grew over the first several days, it 
became apparent that more defensive measures to protect the coastline 
were necessary and that there was time to implement those measures as 
the oil approached from 48 miles offshore. Local governments, concerned 
with the lack of protective measures in their parishes, developed more 
robust plans to counteract the approaching oil but were frustrated with 
their inability to interact and participate in the response efforts. 
OPA 90 imposes responsibility upon the ``responsible party'' to conduct 
response and removal activities, with oversight from the U.S. Coast 
Guard for offshore spills. BP and the Coast Guard were rigidly 
executing the Area Contingency Plan and the State and local governments 
found it hard to influence those actions and to incorporate more recent 
analysis of what critical areas needed protection. Representatives from 
the State continue to engage the locals in preparing alternative 
response plans. These alternative response plans were then presented to 
the BP/Coast Guard Incident Command, and vetted through the Planning 
and Operations subgroups. These plans were not adopted in full, but 
served as a framework for use by the Unified Command in protecting the 
coast from impact.
    A State, whose territory is impacted by an oil spill, does not have 
the authority to direct response activities. This stands in marked 
contrast to the emergency response framework for non-oil spill 
emergencies and disasters (such as hurricanes, tornadoes, ice storms, 
and earthquakes) where State and local officials have the authority, 
and are expected, to take direct actions to protect life and property. 
Under OPA 90, it is the responsible party--in this case, BP--that has 
the authority to conduct response and clean-up activities while the 
Federal Government maintains ultimate authority. As the event continued 
into the first weeks, the Coast Guard incorporated the local 
governments into the response efforts both to take advantage of their 
in-depth knowledge of the local area, and to adopt the detailed local 
response plans into the overall response effort.
    LOSCO representatives have maintained their interaction with local 
officials since the early days of this event. A designated State On-
Scene Coordinator (SOSC) has been present in the Houma command center 
since its inception. Representatives of State agencies have been 
integrated into various levels of the Federal response to include the 
Houma-Incident Command Post and Unified Area Command which was in 
Robert, LA, and is now located in New Orleans. Additionally State 
employees have worked tirelessly with local officials to better 
coordinate resource requests and serve as an ombudsman for local 
government. Additionally, LOSCO engaged a full-time representative to 
enhance coordination with the parishes.
    The United States Coast Guard has stationed a liaison officer at 
the State Emergency Operations Center. The United States Army Corps of 
Engineers, United States Department of the Interior, National 
Oceanographic and Atmospheric Administration (NOAA), Department of the 
Interior, and others have been actively engaged in the response to 
protect Louisiana's coastline.
    In conclusion, at this time, over thousand State personnel are 
involved in the response; both in the field, and in the Houma Command 
Center. The oil is the enemy and our response will remain firm and 
lines of communication open.
    Thank you.

    Mr. Carney. Thank you, Colonel.
    We will hear from Mayor Hibbard. But Mayor Hibbard, please, 
for 5 minutes.

   STATEMENT OF FRANK V. HIBBARD, MAYOR, CLEARWATER, FLORIDA

    Mr. Hibbard. Thank you. I am very familiar with time 
limits; thank you, Mr. Chair, committee. I am glad to have the 
opportunity to talk to you and give you a local government's 
perspective.
    I would like to talk about communication between the 
Federal, State, county, and local governments along with some 
of the effects from an economic standpoint that this spill is 
having in our area.
    I understand that we are functioning under unified command 
and have gone through all the required NIMS training. At the 
same time, there has been a disconnect between the data that we 
are getting at the local level. It is incumbent upon county 
emergency managers to be at the top of the heap as far as local 
response. Initially the conference calls that those emergency 
managers were having on a daily basis with BP, the Federal 
Government, and State DEP, we were not privy to those. So a lot 
of that data is not filtering down to the local cities that are 
dealing with this on a daily basis and trying to prepare and 
understand the resources.
    I did have the opportunity to visit New Orleans just a 
couple of weeks ago and go out to the marshlands right here in 
Louisiana and see the response and see the fact that you have 
limited resources. We want to make certain that those resources 
are going where they are most needed. We do not want to steal 
those away from the areas that are currently being affected.
    That being said, we also want to know that when the time 
comes, we will have resources should oil start to threaten our 
shores. That is one of the great challenges for us.
    I would also say that many of the conference calls which I 
have sat in on personally are very good from a technical 
standpoint, to keep someone like myself or our emergency 
managers up on the latest events. But as all of you know, all 
of the issues that we face have many facets, they are very 
complicated.
    I would request that somehow, we get somebody who 
specializes in public relations that can synthesize a lot of 
that data down so that we can convey it to our citizens and our 
businesses. One of the greatest challenges we have right now is 
educating people on what truly is going on, what they can 
expect, what form the oil may manifest itself on my beaches. We 
are also a victim of geography and the very poor geography that 
most Americans understand. They do not understand what a large 
State Florida is and the fact that there may be oil in 
Pensacola but we are 8 hours away and have not yet been 
affected directly by the oil. But certainly have been affected 
by the stigma that it brings. That is most affecting us right 
now with our European tourists that are normally coming from 
Germany and Great Britain. Those people are guaranteed that 
they will have a positive experience by their tour operators. 
If they do not, they are refunded their money. Now our hotels 
are giving money-back guarantees that there will not be oil on 
our beaches and if there are, that the customers will not have 
to pay for that. But the airlines are not giving the same type 
of treatment. Therefore, none of the tour agencies in Europe--
they have taken Florida basically off the map.
    We continue to try to communicate where the oil is and 
where it is not. A perfect example of poor communication was 
Visit Florida using a NOAA map and talking about how tourists 
should deal with oil should it be on the beach, for the entire 
State of Florida. That was disseminated to Europe, it was 
devastating. That is the bad type of information that we are 
seeing out there and I think that is something that certainly 
needs to be worked on.
    Our area is just coming off of obviously the recession, we 
were just starting to turn the corner, a very difficult cold 
spring and also the demonization of business travel. We have 
lost tremendous numbers of conventioners and we were just 
coming off that and now we are dealing with it again. We do not 
have the benefit of all the workers that Louisiana has. Our 
hotels just simply are losing business because people do not 
know that oil will not be there in a month or 2, even though we 
know that the loop current probably will keep it away from us.
    Let me give you just a couple of anecdotal stories. Our 
fishing fleets are backing off, they are not getting tours any 
more, they are concerned that some of our waters will be 
reduced. Our hotels, and the hotels have a tremendous 
multiplier effect. There are people in advertising, marketing, 
logistics that work with them and when they lose business, that 
trickle down effect is affecting all of these folks. We are 
even having real estate deals that folks are backing away from. 
That means we do not have documentary stamps, that means we do 
not have other transactions and that money is then not in our 
economy.
    So, Mr. Chairman, I will end there. If there are any 
questions I might answer, you also have my written statement, 
which is far more detailed.
    [The statement of Mr. Hibbard follows:]

                 Prepared Statement of Frank V. Hibbard
                             July 12, 2010

    I would like to thank the Committee on Homeland Security for the 
opportunity to address the tragic events in the Gulf that we have been 
dealing with since April. I will be focusing my comments on 
communication between different levels of government, BP, and the 
public. I would also like to provide anecdotal examples of how this 
catastrophe is affecting our local and State economy.
    I did have the opportunity to travel to New Orleans in June with 
the U.S. Conference of Mayors and tour some of the Louisiana coast 
line. I have seen the resources being utilized and the devastation to 
the environment and economy. I am sensitive to efficient use of 
resources and making sure that resources are available to those most in 
need. I do know that the issues in Louisiana are different from those 
in Florida and believe the Federal Government has a responsibility 
along with BP in recognizing this as a factor in allocation of 
resources.
    It is understood that we are functioning under unified command 
throughout this event but at times it is unclear whether BP or the 
Coast Guard has ultimate authority. The difficulty for local government 
is that we are in daily contact with our citizens and businesses and 
they look to us to be a filter and advocate for them. Currently the 
Coast Guard and White House have daily conference calls, originally 
local governments were not privy to these calls, that has since 
changed.
    We look to our County emergency managers on a local basis for 
mitigation strategies and to determine whether we have all the 
resources to combat oil should it arrive on our beaches and estuaries, 
and the different forms it may manifest itself. We are concerned about 
usurping the resources that are currently needed elsewhere but also 
want to insure that we are prepared and will have access to the 
resources should they become necessary. The time frames in which we 
would be notified by Coast Guard have been a moving target between 4 
and 6 days. As a Mayor I have to be able to assure our coastal 
residents and businesses that we will be prepared to minimize damage 
and coordinate a rapid clean-up!
    I have personally listened to several of the conference calls and 
they are helpful in staying abreast of recent developments especially 
on a technical side. I would hope that an additional format can be 
developed that is more appropriate for a layman. We need information 
that is technically accurate but can be used to educate the media, 
citizens, and the tourist industry. Our greatest challenge in 
Clearwater and along the entire Florida coast is getting accurate 
information about where oil is and areas that most probably will not be 
directly affected.
    While there has been a shift of economic activity in Louisiana from 
fishing to oil clean-up, Florida is not reaping an offset of activity 
we are simply seeing a decline in tourism activity. While those in 
Louisiana fight a legitimate physical battle with oil we are in a fight 
with perception and the stigma of potential oil. We do not have a flood 
of workers staying in our hotels on the contrary we are losing 
reservations on a daily basis.
    Currently we are in our high season for tourists from Great Britain 
and Germany this is very challenging because these countries require 
tour operators to guarantee the quality of their customer's experience. 
This guarantee has resulted in many tour operators taking Florida off 
their menu of destinations. They have done this because even with the 
knowledge that oil is not on Clearwater's beach today there is no 
assurance that in a month when their client arrives that we will still 
be unaffected. Many of our larger hotels have introduced programs that 
offer a money-back guarantee should oil be on our beaches, this is 
beneficial but does not eliminate the second issue which is airlines. 
The second roadblock is that airlines are not allowing people to get 
out of their reservations and so they are choosing other destinations.
    What has all this done to our economy? It has hampered what was 
starting to be a slow recovery from the recession and a very cold 
spring. The multiplier effect of this is tremendous impacting; 
restaurants, fishing charters, logistical companies, retail, marketing 
firms, advertising, real estate, sales tax, car rentals, etc. We 
recently had a group meeting from the Labor Department that canceled 
because of the threat of oil and is now going to Boulder.
    A few examples of the multiplier effect; we recently had a 
convention coming that had contracted with a limousine and bus company 
for all transportation it was a contract worth $35,000 and with the 
conference moving to outside Florida that operator has lost that 
revenue which creates jobs for drivers and a means to cash flow 
vehicles. A prominent realtor I spoke with recently lost two beach 
front condo closings due to the threat of oil on our sugar white sand 
beaches. This resulted in a loss of commission that the realtor will 
not be spending locally. The State has lost documentary stamp revenue. 
There is no need for movers or the buying of appliances or any of the 
other activities associated with a real estate transaction. Eventually 
those units will sell but possibly at a lower price which then 
diminishes property tax revenues that leads to fewer dollars for 
Police, Fire, and Libraries. These are claims that are virtually 
impossible to quantify and will most likely never find their way to BP.
    We in Florida also face the challenge of geography, Clearwater is 
over 8 hours from Pensacola but the media reports that oil is on 
Florida's beaches without distinguishing that the majority of the State 
is completely unaffected. I am not hopeful at getting our Nation to 
become better at geography nor those from other countries, that is why 
the quality of the information and the format in which it is presented 
is so crucial. This falls to BP and the Coast Guard as the originator 
of data. I would appreciate BP spending more money on public relations 
for the areas that have been affected tangibly and simply through 
perception.
    I hope that this synopsis is helpful and I look forward to 
answering questions not addressed as we work together to repair this 
devastating tragedy.

    Mr. Carney. Thank you, Mr. Hibbard. I want to thank both of 
you for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel and I will recognize myself for 5 
minutes. If need be, we will go to a couple rounds of 
questions.
    This is for both of you. Have you ever received conflicting 
information from the Federal Government and/or BP?
    Col. Edmondson. I think you can go back to Day 1. I think 
as part of our Hazardous Material Hotline Louisiana, the first 
calls made into that line by BP was the fact that there was an 
explosion on that oil rig, but there was no oil at that time 
leaking, there was no impact to the State of Louisiana. That 
continued for several days when they really did not know how 
much was coming out of it. It could be as little as 1,000 
barrels and it could be as much as an unlimited amount. That 
changed every single day.
    I think what was most disturbing for a member of the 
Governor's cabinet is the fact that getting resources into the 
State of Louisiana, we needed more boom, we needed more 
skimmers. You know, you go back to Katrina, I was here during 
Katrina, I saw the lives of families, I saw the looks on faces 
and the response somewhat from the Federal Government--and this 
is just honest--was maybe it is just not that bad. It is just 
not that bad, this is New Orleans, there is a little water down 
there, they are used to it, they are below sea level anyway. 
Well, maybe this incident in the Gulf, maybe it is just not 
that bad, is what they are saying.
    With that much oil even from Day 1 escaping from that line 
and the ability of how close it was to Louisiana of coming 
here. Keep in mind, it still has not stopped. I mean we are 
cleaning it up. It is easier to clean off the beach but it 
still has an impact. Getting inside those marshes, remember, 
that is what protects the city of New Orleans and cities along 
interstate 10 as storms come into the State of Louisiana. When 
that oil gets into the marsh, it just simply dies.
    Mr. Carney. Colonel, was the fact that the first couple of 
days or 2 or 3 days, that they said there is no or little oil 
coming up as a result of the explosion, that delayed, in your 
mind, the response from the Federal Government and State 
governments in terms of getting skimmers and boom in place and 
that sort of thing?
    Col. Edmondson. I think it certainly did and I think when 
you look at BP, did they have plans in place. Most definitely 
they had plans in place. Were they plans that looked at 
significance occurrence, was it worst-case scenarios? Because 
this was a worst-case scenario in the beginning. It just did 
not seem like they were prepared at that point to actually 
fight that. To think that, again, maybe it is just not going to 
be that bad and we will be able to clear this up, because most 
oil spills in a regulated area, it is usually by space and even 
by time and this was one in the middle of the ocean and 5,000 
feet. Certainly when plumes of oil come up, they do not go 
straight up, they move within the water. That is what we saw 
within Louisiana and then every day, depending on the weather, 
depending on the wind, it just kept coming right back into it.
    The other thing with NOAA, they rely on mechanisms within 
models to be able to look at where the possibility of the oil 
might go but if it is not a live eye looking at it that day 
because of weather or something like that, they really can only 
guesstimate based on models out of another State, to see what 
is happening in the Gulf of Mexico. So I think that was some of 
the earlier unknowns and inability. Keep in mind, you are 
dealing with the State of Louisiana, a very diverse group of 
individuals that are going to go out there and do the best they 
can to protect their areas and they started doing that from Day 
1.
    Mr. Carney. Are the lines of authority clear?
    Col. Edmondson. I think they are in some parts. I think you 
have to go to--you can certainly do whatever you want, but it 
is that reimbursement. The ability of whether you do those 
things even though you are trying to fight the oil doing those 
things, there may not be a reimbursement in that portion of it 
from either the Federal Government or from the Oil Spill Act or 
whatever form or mechanism or funding that is available to get 
those in.
    Mr. Carney. I certainly hope that is not the initial 
decision point before somebody acts.
    Col. Edmondson. We certainly hope that also.
    Mr. Carney. I am sorry--Mayor.
    Mr. Hibbard. I would say there were several things. I think 
the lines are becoming clearer, fortunately.
    One of the things that has vacillated is how the oil would 
manifest itself on our beaches. Would it be pure oil, would it 
be sheen, would it be tar balls. We were told that Pensacola 
would not get what I would call pure oil, that it would come in 
the form of tar balls. That obviously has not been the case. 
That is something that has been on-going.
    We have been told anywhere----
    Mr. Carney. Excuse me. Who told you this? Was it----
    Mr. Hibbard. We had information from the Coast Guard.
    Mr. Carney. From the Coast Guard.
    Mr. Hibbard. Yes.
    Mr. Carney. Okay. Is the Coast Guard your primary source of 
information?
    Mr. Hibbard. It is one of our primaries, having Air Station 
Clearwater, who did the most Katrina sorties, they are one of 
our primaries. Also St. Petersburg has been one of the incident 
command points.
    Mr. Carney. Right.
    Mr. Hibbard. So they have been a point of contact.
    Mr. Carney. Okay.
    Mr. Hibbard. The other issue has been how much notice we 
would get. Obviously we are dealing with weather, so that is 
variable.
    Mr. Carney. Right.
    Mr. Hibbard. But it has gone between 3 and 6 days that we 
would have a firm number, that if they thought it was coming to 
our beaches in the central west coast. At first, we were told 6 
days, it has gone as low as 3 and now the party line is 4 days. 
The question is: Do we have the resources to deal with it? We 
have gone to each of our fire departments to find boom rather 
than going to the Coast Guard or BP.
    Also the success of boom. I guess you have all taken the 
tour today. Certainly when I was here a couple of weeks ago, 
you could see that the boom is a very imperfect defense against 
the oil. We too have estuaries very similar to the marshes.
    Then just the effects of a hurricane. What kind of wild 
card is a hurricane, and I do not think that anyone knows that. 
But getting a similar answer from different agencies is 
difficult.
    Mr. Carney. Okay. My time is up. Mr. Bilirakis for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mayor, are you hearing from constituents that the claims 
process currently established by BP is sufficient? Are you 
worried that claims that are difficult to quantify, such as the 
impact on the real estate market or tax revenue will not 
ultimately be paid by BP, and what input has BP solicited from 
your office to ensure that they have complete information on 
the impact of this spill on the Clearwater economy as they work 
to resolve the claim issues?
    Mr. Hibbard. Well, I would credit Mr. Dempsey, who you are 
going to hear from shortly, to having very open lines of 
communication. He has done an excellent job.
    We recently had a claims office open in the city of 
Clearwater, which is a good and bad thing. Once people hear 
that you have a claims office, they assume again that you have 
oil on your beach rather than you are just being impacted by 
the threat.
    I think the information on how people will go through the 
claims process still needs work. That is one of the things that 
I continue to hope to work on. Most of the people should be 
putting their claims in on-line initially and then if they are 
having difficulties with that, then they can go to an actual 
field office to talk to them.
    I think the second part of your question, Congressman, is 
what I am most concerned about and that is quantifying the 
effect of this spill and the stigma attached to it. When you 
start getting further and further from the source of revenue, I 
think that is very difficult. I do not know that we will be 
able to quantify lost sales of real estate and what that means 
to our tax base and how that affects police and fire and 
libraries which we pay for through those tax revenues. All of 
the other multipliers within that. I think the further you get 
from the source, if you are not a fishing charter boat, if you 
are not a hotelier that has not had a canceled reservation, how 
can you quantify the business that simply is not even making 
inquiries in coming to your area?
    Mr. Bilirakis. Thank you. As in many Gulf cities, the 
tourism industry in Clearwater has suffered greatly from the 
cancellation of events as a result of this spill. You mentioned 
in your testimony a group from the Department of Labor 
canceling their meetings and relocating them to Boulder, 
Colorado because of the threat of the oil. This seems to 
illustrate the point that the Government is not doing a 
sufficient job internally to share information, let alone 
spread the message that the oil has only reached certain parts 
of Florida. What efforts would you like to see taken in terms 
of public relations and media messaging to alter the current 
perception that oil has reached all of Florida? You mentioned 
Europe and other parts of the country as well.
    Mr. Hibbard. BP has given money to the State of Florida. A 
portion of that recently did come down to our Tourist 
Development Council within our county, which was our initial 
request to the Governor, because we believe that we understand 
our market and the markets that we serve better than Visit 
Florida does. We have been trying to get the information out.
    I think it is very difficult to get that information. The 
media has not been as helpful as we would like in reporting on 
the stories of where oil is versus where it is not.
    My other concern I think is that we need to have another 
form of information that is less technical, that is accurate. 
Accuracy is critical but the information that we get from the 
Coast Guard and FDEP is not the kind of information that we can 
pass on to tour operators and hotels and our citizens. So there 
needs to be a more user-friendly medium.
    Mr. Bilirakis. Question for the entire panel and my last 
question, Mr. Chairman.
    What impact has the oil spill had on your hurricane 
preparedness efforts? Maybe Colonel, you could start on that.
    Col. Edmondson. Of course, we started some time ago with 
our hurricane preparedness. One of the main things we needed 
from BP, which took awhile to get from them was exactly their 
evacuation plan. That is going to be important to us as we look 
at removing those people that are closest to the coastline of 
Louisiana. So we need a plan from BP of actually how they are 
going to remove those people from the oil rigs, from the 
working ships in that area, to move them into Louisiana so we 
can get them out of harm's way.
    What is critical to Louisiana is the H-hour and that is the 
hour when tropical force winds reach the coast of Louisiana. 
Once that starts 40 hours out, we have to start looking at 
contraflow, which is our last means of removing people from 
south Louisiana. Once we do that, of course, we close 
interstates and move them in one direction so we can move 
people. It is kind of like an hourglass. Prior to contraflow, 
you can go anywhere you want. To move people out, we encourage 
it, we assist people in doing that, but once those tropical 
force winds get close to the coast, we have got to quickly move 
those people out. So what has been critical, and we have gotten 
those plans from BP but it was a lot later than we would have 
liked to have gotten them. But we have been working, that is a 
constant effort that is on-going within Louisiana as far as 
hurricanes. We are certainly not, along with our brothers in 
Alabama, Mississippi, Florida, and of course in Texas, we do 
know how to deal with those things. Our concern is the life and 
property in the waters, to actually move those prior to 
hurricanes coming in.
    Mr. Bilirakis. Thank you. Mayor.
    Mr. Hibbard. Congressman, it has not changed any of our 
plans. Obviously those are in place. I think what it is, more 
than anything, is a distraction. As soon as we hit June 1, 
obviously we need to keep our eye on the ball in preparation 
for hurricanes. I think the spill has certainly distracted us 
from that.
    Mr. Bilirakis. Thank you, Mr. Chairman. I yield back.
    Mr. Carney. Thank you, Mr. Bilirakis. Mr. Green for 5 
minutes, please.
    Mr. Green. Thank you, Mr. Chairman. I would like to thank 
you for your visionary leadership. This is clearly a hearing 
that is timely. I also would like to thank the members of the 
Court and the Court Administrators. It is not that often that 
we have an opportunity to have a hearing in such a stately and 
courtly environment. Most appreciative that we have been 
afforded this opportunity.
    Colonel, in my opinion, some things bear repeating. What 
you said about the lives lost, it bears repeating. Eleven 
people lost their lives, families are still suffering. Many 
were injured, still recovering. We should not forget that while 
we have other concerns that have to be addressed, those lives 
that were lost must be considered such that we never allow this 
to happen again. I do not want us to lose focus and I am most 
appreciative that you called it to our attention.
    Mayor, I want to thank you for your testimony. You have a 
perch from which you have viewed this that is exceedingly 
important to us. So I will have a first question for you, 
Mayor.
    Heard a lot about the moratorium and we hear quite a bit 
about the jobs that are impacted. You are from another side of 
the Gulf. I am interested in knowing what your people are 
saying about this in terms of getting it right so that it never 
happens again.
    Mr. Hibbard. There has been great discussion on that, 
Congressman. Our Governor has called a special session to talk 
about offshore drilling on Florida, which was on the docket for 
the next legislative session. I think the majority of 
Floridians right now see the threat that offshore drilling 
presents. At the same time, visiting here several weeks ago, I 
had the opportunity to be meet several families, half of which 
were fishermen and half of which worked for the oil industry. 
Those seemed to be inseparable. They believe that they can 
continue to live in harmony. I think the key is making certain 
that there are steps to increase safety on the rigs. We 
understand that we want to move towards energy independence.
    I would make one comment. Certainly we should remember the 
11 men that died on that rig, but there are lives being ruined 
right now because of the economic impact--people who will lose 
their livelihoods, lose boats, lose family businesses, that 
they may never get back.
    Mr. Green. Thank you. I concur with you. There is a balance 
that we have to achieve. We have to make safety of primary 
importance and I understand this and I have a special 
relationship, by the way, with your State and with this State. 
I was born right here in this city and was reared in Florida. 
You and I went to institutions that border each other, I was at 
Florida A&M. So I do understand both States and I concur with 
you with reference to what we must do to do what we can to 
minimize the impact on the economy throughout the area along 
the Gulf coast. That balance has to include all that we can do 
to stem the flow of the oil, to move on with getting people 
back to work and keeping those jobs available, as well as 
making sure that we do not have the tragedy occur again. I just 
do not want us to lose sight of that as we talk about the 
economy. The economy is exceedingly important but so are lives, 
and it is that balance that we have to achieve.
    I would like to ask you, if I may, Colonel, as you have 
been working with the various departments trying to maintain as 
much intelligence as possible, what has been the chief obstacle 
that you have encountered in terms of having information flow 
to you such that you would have the empirical evidence that you 
need to make the decisions that you have made along the way?
    Col. Edmondson. I think several issues that you have got to 
look at in that. One, the ability to know where the oil is 
moving to. Evidence outside of models from other States that 
guess possibly where the oil is moving to and then for us to 
see an impact to an area that the models did not really show 
that. Nothing beats a live eye, the ability for weather to be 
clear to allow a plane to fly over to actually see from it. I 
think that was what was so important for every single day as we 
finished our Unified Command Group meeting, we got on a 
Blackhawk helicopter with Governor Jindal and we went to where 
we thought the oil was, so we could see first-hand, so we could 
talk to the individuals that were there and ask them: How is it 
affecting you, how can we do this better? There was an 
inability of that.
    I think the flow of communication early on was significant, 
because as we needed more boom, you really were not sure where 
the boom was. It was being deployed to other States, we 
certainly got our fair share in Louisiana, but some got moved 
to other States where there was no oil at the time. Then they 
would try to move it back to Louisiana. We also know that there 
was not a large supply of boom in the world at that time and we 
were trying to get as much as we could into Louisiana. But 
listen to that every single day, knowing that we needed those 
skimmers, knowing how much oil was coming out of that area, 
that it was just going to continue to flow, you needed that 
information, needed to get it quickly. So I think that flow of 
information early on to know the significance of this event. 
Certainly, BP had to know the significance of what the worst-
case scenario would be from that oil and it just was not given 
to us in the timely manner that we felt we could have been a 
little bit more prepared.
    Plans were there, but also the ability to be flexible 
sometimes with those plans, to know your plan is this, this is 
what we are geared up for. Well, but you know what, we know 
that area a little bit better, we know that we should be 
flexible, let us do some other things here. Just the inability 
to do that in a timely manner. We will get back with you 
tomorrow, we will get back with you next week. Then next week, 
well, you know, give us another week. Every day that oil is 
flowing, every day lives are impacted, every day the economy is 
impacted. The Gulf is 35 percent of our seafood industry in the 
country, a third of our oil. So we know every day what that 
impact was. I think it was an inability for that to be focused 
so that we could get the right resources in place. I think that 
was probably the biggest obstacle as we looked at that, getting 
that flow of information.
    We have a working relationship with our Coast Guard, 
members of the Coast Guard was in our command staff briefings 
every day. So we had the ability to get that, but even from 
that point, sometimes his answer was, you know, I can only pass 
that forward. I will get back to you tomorrow. Tomorrow is 24 
hours later and sometimes that is what the difficulty is. Both 
agencies were frustrated in ability to move forward on that. I 
think we saw that.
    I was in the very first meeting when President Obama came 
to Louisiana, I was able to be in that room that day. To hear 
from the EPA of the impact in New Orleans, to hear on our 
coastline, to hear from the Coast Guard, to hear from the 
officials first-hand what was going on and even the inability 
of well, we really are not sure exactly what to do, exactly 
what needs to be done. I think that inability that we saw in 
those first few days and first few weeks, I think we have paid 
the price for that as we move forward. Because it is hard to 
recoup that when the oil has not stopped. It is still flowing 
every single day.
    Mr. Green. Thank you.
    Col. Edmondson. I just want to add this, if I could. What 
is most important, and I know y'all know this. This is not a 
100-yard dash. When that oil--we hope that when they place it 
on there, we can stop that oil. We pray for that every day. But 
that is not the end. We cannot declare victory after that. We 
still have to clean it up, we still have to fix our fisheries, 
our coastline, our shoreline. That is what we have to remember. 
This is a marathon. We need to be in it for the long haul and 
that is why it is so important for y'all to have these 
hearings, that is why I am so pleased you could be here to be 
able to talk about these things, because you need to hear from 
us. We are in it for the long haul and we need to hear that 
from y'all.
    Mr. Green. Thank you.
    Mr. Carney. Thank you, Mr. Green. Mr. Cao for 5 minutes or 
so, please.
    Mr. Cao. Thank you very much, Mr. Chairman. Thank you for 
holding this important hearing in my district, which is at the 
front line of this oil spill.
    I have seen first-hand the confusion and the frustration 
caused by what I see as a lack of a coherent command structure. 
So most of my questions will be focused--will be asked toward 
Colonel Edmondson.
    My first question to you, sir, is you stated in your 
testimony that Federal officials should listen more to State 
and local governments with respect to this oil spill. In what 
ways has the Unified Command lacked in that regard and how has 
this deficiency affected the State's ability to prevent oil 
from entering our most sensitive areas?
    Col. Edmondson. Well, I think we have certainly seen 
improvement. As we have all grown in this matter, we have 
certainly seen improvement in that area. But I think 
understanding the fact that people live in an area, work in an 
area, work within that industry, they know first-hand the best 
ways to approach the problems of significance in that area. I 
think we saw that and tried to get that information out, to be 
able to be flexible in those plans and to get the communication 
out. Maybe the original plan showed that boom needed to be in a 
specific area, but to be flexible to know that, you know what, 
it did say that, but it also needs to be here. As the currents 
flow within the Gulf, as weather has affected it, as winds 
affect it, the ability to be flexible and move those things in. 
I think that was the frustration, as I saw it, from the 
beginning. Again, I am here from the emergency response effort, 
to be able to talk about that, and the inability for us to do 
that.
    But certainly it was in place to address those matters, but 
just the flexibility to change as those matters came in place.
    Mr. Cao. Now did you see I guess mixed messages from the 
different agencies who were deciding on a number of projects or 
on a number of procedures? Did you encounter, for example, one 
agency saying one thing and another Federal agency saying 
another thing? What kind of confusion has that caused, for 
example, State agencies to better mobilize?
    Col. Edmondson. Well, I think just in line when you say I 
will get back to you, the oil is still flowing. To say I will 
get back to you when you meet again, it might be 24 hours 
later. I think it takes sub-sea dispersements. We were against 
that, we wanted more information on that. Certainly when you 
disperse oil, it has got to go somewhere. When it breaks up 
into much smaller pieces, there is some understanding from 
Wildlife and Fisheries and the Department of Environmental 
Quality in Louisiana who were listening to our own scientists 
who work daily within that region and knows the marshes, knows 
the sub-sea life and the fisheries there. I think the lack of 
trying to get that information available, because we do not 
know what the long-term impact is going to be on that, we still 
do not know to this day.
    So I think some of those things as you compile them 
together certainly were frustrating as we moved forward in that 
because there were so many unknowns and even we might have had 
impact in that and it did not necessarily go the way we would 
suggest it. It had impact directly to the State of Louisiana.
    Mr. Cao. Now if you were in the shoes of Admiral Thad 
Allen, what would you want to implement?
    Col. Edmondson. I am not in his shoes thankfully.
    Mr. Cao. But if you were in his shoes, what would you want 
to implement?
    Col. Edmondson. Well, I certainly hate putting words in 
people's mouths, but I think the ability to just get everyone 
together and really listen more than speaking, let us listen to 
exactly what is going on out there, let us talk to the people. 
Let me tell you something, these Coast Guards that live and 
work in Louisiana, they are Louisianans, they live and breathe 
and work here, they have families here. There was even some 
frustration internally what to do from the beginning because 
this was such a large magnitude. You know, it is just like the 
worst-case scenario was not there. We saw him do that, bring 
people in and try to get all the information available and find 
out where are the resources. Take the game of football, it 
takes a game plan, a game plan to get things done, to move that 
football down the field, to score a run in baseball, to score 
the winning goal in soccer--it takes a game plan. You have got 
to be able to stick to that game plan but be flexible in it 
also.
    Mr. Cao. What can we do to improve information sharing 
between Federal, State, and parish officials?
    Col. Edmondson. I think we are doing it right here, 
Congressman. I think by bringing people together, having 
oversight from a committee such as this and make people talk 
about this so it is reported in the news, people see that. I 
think that is important.
    But keep in mind, once this is cleaned up and we move 
forward, we are still involved with the Coast Guard, we are 
still involved with industry in Louisiana. We have got to be 
able to move forward and I think that is why the open line of 
communication, listening, learning from mistakes, learning from 
incidents that happen and moving forward. I think that is going 
to be the key to this.
    Mr. Cao. Thank you, and I yield back.
    Mr. Carney. Thank you, Mr. Cao. Ms. Jackson Lee for 5 
minutes, please.
    Ms. Jackson Lee. Let me thank the Chairman and Ranking 
Member for what is a very important hearing as it lays claim to 
jurisdictional concerns by the Department of Homeland Security 
and this committee.
    Colonel, you are right, we are communicating and I am 
listening. It is not just communication, because this is, as my 
colleague has indicated, a major tragedy. There are families, 
as we sit here today--and some might think that we are speaking 
calmly--who are still mourning the loss of their loved ones. 
There are families who are still nurturing the wounds, both 
mental and physical, of their loved ones.
    Mayor, if there is a resiliency, it is in local government 
because you have got to be the captain and the champion, you 
have got to inspire your businesses and your local population 
to say hold on.
    But I want to show a little bit of emotion and suggest that 
this is gut-wrenching, this is fist-pounding, this is hair-
pulling. We should not be ashamed of it. Because the people of 
the Gulf are resilient. Hurricane Rita, Hurricane Katrina and 
others, what more can they expect? Why have they been rendered 
this? Natural disasters we know may have no explanation, but a 
man-made disaster, for people who are educated and versed with 
the technology of their industry, you wonder why. So frankly, I 
am fist-banging today and outraged.
    My sympathy to the families and as well to the hard-working 
workers, innocent families in the industry, energy industry, 
and shrimpers and oyster persons and fishermen and others who 
depend upon the Gulf.
    I want, Colonel, to say to you that I note the 
conflictiveness of this process. BP is in charge, the Federal 
Government is ultimately accountable. That is unique. I would 
like to raise a question that if we can correct the structure 
of the utilization of what we call National disaster--a 
National disaster means that you pull upon Federal resources. 
The tension between not calling this a National disaster is to 
throw the burden on the Government as it relates to money.
    Would it not be helpful if we looked at that proclamation 
of a National disaster and had a modification of it that would 
allow the private entity to pay, but draw in all the resources 
of a National disaster? That is distinctive from a disaster of 
significance. Colonel.
    Col. Edmondson. I think you are right on with that, Ms. 
Jackson Lee. I think that is exactly something you have to look 
at and I certainly applaud you for making that statement 
because that is what we have to head into.
    I have got to add, if I might, our thoughts to Texas. Y'all 
were so good to us in Gustaf. I was on the tarmac with Governor 
Jindal as we watched ambulances there with people whose oxygen 
was being depleted and once that was out, it was over. To see 
those planes come from Texas, that was incredible, to bring the 
resources that you have. I am going to be meeting with my 
counterpart in Texas in Houston on July 20 and we are going to 
talk about preparedness, we are going to talk about this 
incident, and try to work with the police chiefs in Houston, 
Beaumont, and Orange to try to look at helping Houston, helping 
Texas the same way that y'all have been so good to us.
    I apologize for adding that, I know that is not what we are 
here to talk about, but I think it needs to be said.
    Ms. Jackson Lee. We appreciate it.
    Col. Edmondson. Y'all have been incredible neighbors and we 
are going to certainly be just as good to y'all.
    Ms. Jackson Lee. We appreciate it.
    Col. Edmondson. Thank you for those comments. I think that 
is something we have to----
    Ms. Jackson Lee. Let me pose another question if I might.
    The Federal Government, with its structure, if there was 
the provision that if a company had a series of violations of 
safety, that the Federal Government could shut that company 
down in offshore drilling. Would that have made a better 
situation, now that we know how many safety violations BP had?
    Col. Edmondson. I think certainly as we move forward we see 
the significance, as the Federal Government, State government 
gets involved in the investigation. I think you are going to 
see how significant that would have been.
    Ms. Jackson Lee. Mayor Hibbard, let me ask you with respect 
to the tourists and the effort that BP has had. Would you want 
funds to come directly to local government and what greater 
efforts can BP implement? Maybe they can use some of the 
advertising dollars that they have utilized now. I certainly 
appreciated that they tried to give the public more 
information. But I would think that they have given them enough 
information about how many good people are there trying to pay 
claims. Could they use some of that or could you use some of 
that--you do not have the ethical violations that might come 
up--to pay to advertise the goodness of the Florida coastline? 
Would that be helpful to you?
    Mr. Hibbard. That has been something, Congresswoman, we 
have been asking for and have not gotten directly. But we do 
believe that we have the knowledge to really utilize those 
dollars and in a way to ultimately save BP money because we 
would not have the losses.
    Ms. Jackson Lee. Less people for claims.
    Finally, Colonel, let me just say that in Katrina, as you 
well know, there was a degree of frustration, devastation, 
emotional distress. Legislation that I am writing called The 
Remedies Act includes some of the questions that I asked you. 
One that it adds is resources for post traumatic stress, which 
I imagine is happening to shrimpers and others, restaurant 
owners. Would that be a component in a disaster funding or 
structure that should be put in place?
    Col. Edmondson. Absolutely, and we are seeing evidence of 
that even today. So that is absolutely something we need. We 
certainly saw it in Katrina. I was there. Now we are seeing it 
after this incident. I think you are well within the right 
direction on that.
    Ms. Jackson Lee. Thank you. I yield back.
    Mr. Carney. Thank you. Ms. Richardson for 5 minutes. But 
before you do that, I think we will have enough interest in 
another round for this panel. So go ahead.
    Ms. Richardson. Thank you, Mr. Chairman.
    I believe it is Colonel, right?
    Col. Edmondson. Yes, ma'am.
    Ms. Richardson. I think you asked the question: Are we in 
this for the long haul? The answer is yes, and that is why we 
are here. Many of us could be in our district and doing other 
things but we are here because we are concerned about what has 
happened. We view that there is accountability that can go 
across the board and that is why we are here.
    Let me talk a little bit about communications and outreach. 
You talked about layman's terms. I have got to tell you--and 
let me say I am so glad--first of all, I want to thank our 
Chairman, Mr. Thompson; I want to thank Secretary Napolitano 
for affording Members an opportunity to not only be here for 
the hearing but to actually come and to see some of the real 
world of what is happening out there that you are facing.
    I have got to tell you this--and you know, many of us have 
our frustrations and we are going to have an opportunity to 
talk to a BP representative shortly, but one of my biggest 
frustrations, and I am going to be very frank with you, is the 
media and how this has been portrayed.
    When I listened to you, Mr. Hibbard, it is almost criminal 
what is being done on the television. I expected--and I am 
going to be very frank with you--I expected to go out there and 
see waves and waves of oil. I had no idea to be able to put 
into perspective--I am from California--I had no idea, and I 
have been to New Orleans many times, but I had no idea how to 
put in perspective the miles of distance between New Orleans 
and where we are seeing the unfortunate impacts. So to me, 
shame on the media, which I think equally has a role to play in 
this of hyping some of this up to the point that people are 
afraid to come out of their homes, they think birds will never 
fly again. I mean it is wrong what has happened.
    So what I intend upon doing and what I intend to challenge 
some of the Government agencies is shame on us for allowing the 
media to paint the story of what is happening out there. If we 
have to do our own television shows on C-SPAN or YouTube or 
whatever it is, then let us do it. But we should not be 
allowing the one or two scenes--you know, I have some 
information I am going to show you of, yes, oil that I saw, 
and, yes, it is there. But it is not what I have seen on the 
television and it is wrong. So part of what is hurting the 
economy is the failure to properly communicate what in fact is 
happening.
    So I wanted to say that publicly first and then I will get 
into my two questions. One for each of you.
    Colonel, in your testimony on page No. 5, you talked about 
participating in the response and you said, ``Local 
governments, concerned with the lack of protective measures in 
their parishes, developed more robust plans to counteract the 
approaching oil, but were frustrated with their inability to 
interact and participate in the response efforts due to the 
response framework dictated by the OPA 90.''
    What specifically do you have as an example of what you 
mean by that?
    Col. Edmondson. I think most important is flexibility. I 
know when you have an incident of this magnitude, you have got 
to be able to be flexible to know that just because in your 
plan it may have called for boom in one specific area, you 
ought to be able to move it on an as-needed basis, that was 
hard to do. Also, when you need more of it, you need to know 
when it is coming. Not just say, well, you know, it is coming, 
it will be here tomorrow and the next day well, it is going to 
be here the next day. I think every day I think that hampered 
us and I think that was some of the things we saw involved in 
that, in getting that information to them and understanding 
they know it better than anyone does, especially in those 
areas.
    So I think more than anything else the flexibility of 
getting that information and also giving them impact to know 
what is needed in that area and try to get the resources there. 
I know that Chairman Carney actually said we hope that 
certainly did not impact that, it certainly did and they moved 
forward and did some of those things and whether we are able to 
fund that or not, certainly that was the right thing to do. But 
there ought to be some flexibility in there to actually allow 
them to do that.
    Ms. Richardson. Have you seen that improve?
    Col. Edmondson. We have seen improvement in that. I think 
you have seen that, and certainly as we move forward. But I 
think the damage done in that critical early aftermath of it, I 
think that is going to be the problems we see from this point 
out.
    Ms. Richardson. Okay, and then my last question of this 
series is to Mr. Hibbard and I apologize if I am butchering 
your name here. You said it was difficult to know who was in 
charge, whether BP or the Coast Guard ultimate had authority. 
That was on page 1 of your testimony.
    Do you not know that today, honestly?
    Mr. Hibbard. I feel much more comfortable now understanding 
the chain of command. Those lines have been brightened.
    Ms. Richardson. Who, in your opinion, is in charge?
    Mr. Hibbard. I feel the Coast Guard is in charge now.
    Ms. Richardson. Okay.
    Mr. Hibbard. But at first, I really felt as though BP was 
calling the shots and even had written the President a letter 
to that effect, being very concerned. The Colonel had mentioned 
that it is like a game plan for a football team. We really do 
need a single coach calling the shots. I appreciate home rule, 
but you even have competing States for resources.
    Ms. Richardson. Absolutely.
    Mr. Hibbard. So we do need unified command. I think that 
has improved, but it is something to be looked at for future 
events.
    Ms. Richardson. So as I close my first round, I just want 
to say not to in any way portray that what I saw is not 
damaging and it is not going to take tremendous work to repair, 
but what I also saw is that it is not everywhere. All of the 
implications that I thought were not certainly the case.
    Thank you very much.
    Mr. Carney. Thank you, Ms. Richardson. I think we will do 
another round with this panel and I appreciate your 
forbearance. We do not do this always.
    I'm sorry?
    Col. Edmondson. If you need any part of the technical 
information also, it is available.
    Mr. Carney. We will get to him if we need it. But the fact 
we are doing this is testament to the compelling nature of your 
testimony. So thank you very much.
    Colonel, does your office provide input on the spill 
response efforts? If so, how was that received and how was that 
information treated?
    Col. Edmondson. We have input at the meetings and as 
information goes forward, we have an actual on-scene 
coordinator through Mr. Guidry's office. He actually was there 
from Day 1 probably for the first 40-some-odd days, was 
actually there every day in the command post there in Robert, 
Louisiana and then we moved him to Houma because that is where 
the main emphasis was taking place. So we have people in 
meetings, we have people that are listening.
    I think what is critical here, if I may just go in this 
direction, is the real-time information. I think that is what 
is so critical. You get that in hurricanes, because everything 
is in the emergency operations center. With us having that 
emergency operations center say in Baton Rouge, say in the 
capitals around Tallahassee or Austin, wherever, Birmingham, 
Jackson; we had an office in Houma, we had an office in Robert 
and now in New Orleans. So getting that real-time information 
and getting it to the Unified Command Group, I think that is 
where some problems flow in there that you had this, that you 
have those offices going on. So just getting that real-time 
information has been difficult.
    Mr. Carney. Mr. Guidry, how were you received? When you 
gave your input to the group, did they embrace it and say thank 
you or----
    Mr. Guidry. I was accepted by the unified command.
    Mr. Carney. Okay, very good.
    Colonel, did your office participate in the SONS 2002 
exercise they had in New Orleans when they had--please step up 
to the chair and join us.
    Mr. Guidry. Thank you, Mr. Chairman.
    I played the State on-scene coordinator for that along with 
Admiral Thad Allen. We worked the SONS. The first day after the 
spill, he told me this is worse than what we had practiced. 
Yes, sir, it is.
    Mr. Carney. Right.
    For the record, could you identify yourself and your 
position and spell your name.
    Mr. Guidry. My name is Roland Guidry, R-o-l-a-n-d G-u-i-d-
r-y and for the last 18\1/2\ years, I have been the oil spill 
coordinator.
    Mr. Carney. Okay. Now, the spill that we are seeing now is 
worse than you practiced in 2002. What could we have done to 
close that gap between the reality that we saw and what you 
practiced? What do you see that we need to do differently?
    Mr. Guidry. You know, I was the oil spill coordinator for 
Katrina, Rita where we had over 700 spills. We had 10\1/2\ 
million gallons of oil at one time that got into the 
environment. We put our hands around it, but not by ourselves. 
We had the Gulf Strike Team and the Coast Guard Strike Team 
from the Atlantic and the Pacific coasts that came and helped 
us. We got into the branches and we really spread this thing 
out pretty good. I think that is one thing that we did not do 
fast enough, is get the strike teams activated and have the 
branches where it goes into the weed, where the locals get into 
the branches and make things easier to work all the way up.
    Mr. Carney. That did not happen in this incident?
    Mr. Guidry. That did not happen until probably 40 days into 
the spill, 35-40 days.
    Mr. Carney. From your opinion and your observation, can you 
say why that was the case, why it did not happen?
    Mr. Guidry. No, I have no earthly idea. I asked for those 
guys early on because I knew how they operated.
    Mr. Carney. Right. So from Rita and Katrina, you had 10\1/
2\ million gallons of oil spilled and you were able, using the 
strike teams, to get a handle on that and clean that up.
    Mr. Guidry. Pretty fast. When they came into the 
organization, things started really moving. They are experts in 
what they do; so, yeah.
    Mr. Carney. Okay. Well, we will talk about that further I 
think in the next panel.
    Now, I have heard the word boom mentioned a lot and the 
shortage of it and not knowing exactly how much you had. Is 
there an inventory done of this and if so, how often? Do you 
know exactly how many feet of boom you have available? Do you 
know the type of boom, the in-shore boom, the further-out kind 
of--do you know that going in or how often is this inventoried?
    Col. Edmondson. We actually, Mr. Chairman, every single 
day, we know exactly how much boom is coming into Louisiana, 
what we have pre-staged, deployed in different areas that we 
can move forward.
    Mr. Carney. Prior to the spill?
    Col. Edmondson. Prior to that. Keep in mind, this does not 
last forever, so some of the stockpile in those areas, once not 
used, the expiration dates on there, you cannot use it forward. 
So it was the unknown of that, of exactly how much was 
available, and that was some frustration early on to try to get 
that because there just was not clearly enough to move forward 
on that.
    Mr. Carney. Understood. I see my time is up. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Mayor, what kind of effect or impact has the oil spill had 
on the seafood industry in Florida? Of course, knowing that 
most of Florida has not seen oil. Then Colonel, if you could 
answer that question as well with regard to Louisiana.
    Mr. Hibbard. It is a very similar effect, Congressman to 
what the oil is having on the tourism industry. It is stigma. 
So whether you go to a restaurant that focuses primarily on 
seafood or a seafood market or the grocery stores, people first 
of all want to know where that seafood is coming from; and 
second, they are just avoiding it altogether. So it is 
affecting the seafood industry in that respect. It is also 
affecting a lot of the sportsmen that we have that come from 
all over the country to fish in our waters for grouper and 
other fish that we are really known for. So it is having an 
impact.
    Mr. Bilirakis. Colonel.
    Col. Edmondson. Clearly devastation in Louisiana because it 
is the source of what people believe, whether it is accurate or 
not. So perception, as we know, based on reality, you are 
exactly right, Mayor. My friends call me from around the 
country, I just saw something from Louisiana, I am not going to 
eat it. Well, it would not be there if it was not safe.
    I think what the public needs to know around the country is 
that every single day we have scientists out there, we have 
Wildlife and Fisheries agents and DEQ specialists that are out 
there testing the waters, testing the fish, testing the life 
within our fisheries and the Gulf coast region and making sure 
that what comes in is edible and we can move it forward. Every 
day we open and close areas based on where we see the oil, 
based on tests that we have done and that. If there is any 
chance for that to be tainted, we are not going to allow 
fishing in that area, we are not going to allow it to be 
removed and we are going to continue to test it as we move 
forward on it. But again, it is perception.
    Mr. Bilirakis. We have got to get the word out, is what we 
need to do.
    Colonel, how many--I understand you are authorized to 
deploy 15,000 National Guardsmen in the State of Louisiana. How 
many are deployed at this time?
    Col. Edmondson. The average contingency is 1,100 that they 
have working throughout Louisiana actively involved in the 
berms and actually placing the rocks as we protect our 
coastline. You know, you have got to say hats off to the 
Louisiana National Guard. What they did in Katrina where they 
actually patrolled the streets of New Orleans, and what they 
are doing in this area with this oil spill is certainly outside 
the scope of what they have done throughout the Nation. They 
have been a tremendous asset to the State of Louisiana, but 
again, 1,100 of those are deployed. We have another couple 
hundred that are every day actively involved in the effort and 
response to this oil spill in Louisiana.
    Mr. Bilirakis. Do you plan do deploy more?
    Col. Edmondson. Well, that certainly would not be my 
decision. They are certainly available if more are needed, they 
could certainly do that; yes, sir.
    Mr. Bilirakis. As noted in your opening statement, I am 
concerned about the delays in the approval of response 
requests. I mentioned it, you did as well.
    What response capabilities have you requested, aside from 
the approval to dig berms, that have been delayed or denied and 
what impact has the denials had on the State of Louisiana?
    Col. Edmondson. Well, certainly when you look at what you 
exactly talked about has been the frustration portion of it, 
needing more boom, needing more skimmers. Knowing that as this 
oil moves in and out of our shoreline, we have got over 6,000 
miles of shoreline in Louisiana. Most people do not realize 
that. But when you look at the topography of Louisiana, the 
inlets and outlets, it is so many miles there and knowing as it 
washes in and washes out, that that effect continues. I think 
that is why it is so critical that we know how much boom is 
available, what types of boom are available and getting those 
deployed in those areas. I think that has been the primary 
frustration in that aspect along with what you talked about.
    Mr. Bilirakis. Thank you very much.
    Thank you, Mr. Chairman, I yield back.
    Mr. Carney. Thank you. Mr. Green, please, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Colonel, you spoke quite well about the flow of information 
as it relates to top-down and of course you put emphasis on the 
necessity to have not only information, but accurate 
information, and have timely information as it comes from the 
top down.
    I would like for you to put a bit of emphasis, if you 
will--and you as well, Mayor--on bottom-up. Were you able to 
have your ideas given immediate consideration? Did you get a 
response with reference to things that you thought were 
important that had some merit, that should be evaluated? Were 
you ideas vetted and did you get the feedback that you needed 
so that you could make some determination as to how efficacious 
you were in terms of helping with this endeavor? If you would, 
please.
    Col. Edmondson. Certainly you had the initial input, but it 
did not mean it was going to happen. I think you only had to 
turn on the news to daily see Parish President Mr. Nungesser 
and Craig Taffaro of Placquemines and St. Bernard Parish, every 
day talking about I am asking for this, I am asking for this, 
where is it? Certainly understand the fact that this oil just 
kept coming and it is still flowing in today.
    Mr. Green. Let me interrupt you, please. What was the 
process, as you understood it, for you to get your ideas to the 
top?
    Col. Edmondson. Mr. Guidry can certainly comment on that 
also because he was in those meetings every single day, but 
understanding every day listening to our parishes along the 
coast report information up and getting that to the unified 
group in Robert or in Houma, Louisiana and then getting that 
information to the Unified Command Group, of which the Governor 
is there and the cabinet secretaries. I think that real time, 
but also understanding that if they need something, they need 
it. To know that it may be the next day or the next week before 
it gets there, I think that was some of the frustration that we 
saw early on.
    Mr. Guidry. If I may. Stuff was slow coming. You know, 
boom, we made a request daily for boom and it got to be almost 
like a joke. I would say ``need more boom'' and everybody would 
quote, you know, say ``need more boom,'' everybody there would 
say the same thing, need more skimmers. Those were slow in 
coming.
    As the Colonel said, we had probably 16 or 18 reports a day 
that come in from all the State entities. We have a call in the 
morning and in the afternoon, all the local branches call in 
and in the afternoon all the parish EOCs are all together at 
one time and they comment on what they need, what they are 
doing, what is not happening. So the lines of communication are 
open to us and we pass that on. Sometimes it is a little slow 
getting back, but that is what we do.
    Mr. Green. Mayor, let me follow up with you if I may. Your 
access to persons who were able to filter your information, did 
you conclude that you had a fair vetting process in terms of 
getting information to the top?
    Mr. Hibbard. We ran most of our information through our 
internal emergency manager who would run it up the flag pole 
through the county and then on to the Coast Guard and FDEP. It 
is a somewhat arduous process. I can tell you that on a daily 
basis, Congressman, I was having constituents give me new ideas 
on how to either stop the well or to absorb oil. It is very 
hard to run all those down and I certainly would not want to 
distract the powers that be from the task at hand.
    I think one of the other issues we ran into was a lot of 
volunteers that wanted to be a part of any cleanup effort that 
might occur and after having a list of literally thousands of 
volunteers that e-mailed into the city and to the county, we 
were told that it would be the responsibility of BP and the 
people that they hired to do any cleanups.
    Mr. Green. Yes, Colonel. I want you to address another 
question, so I want your response, but some of this waste 
cleanup, I am understanding that there is some desire not to 
have it located in certain places and persons have given their 
protest but the waste is still being placed in areas pursuant 
to contracts that were negotiated between BP and certain State 
agencies.
    I would like for you to comment on this if you would, 
please.
    Col. Edmondson. Certainly that is true. Once it reaches the 
coastline, we have a responsibility. Hazardous material is 
under me as far as response. We have got to make sure it is 
properly collected and manifested and properly transported to 
an area. That is a concern when that area transports to may not 
be an area it needs to be in. So we are working very, very 
closely with EPA and of course the Department of Environmental 
Quality, to make sure we work through that. But once it is 
moved in that area and then it becomes infected in that area, 
it causes problems. So I think you are right in your comments, 
Mr. Green, in that area, that we need to make sure that those 
places are done.
    You did ask for examples and I think that we certainly need 
to be able to give you those. I think when you look at booms, 
once you are asking for the booms, and that will come in time, 
then that all moves forward, then it is too late, it is in the 
marshlands.
    One thing that we saw early on and we certainly had many 
conversations with the Coast Guard, who has tried to respond to 
these types of things, but one thing they said early on was 
that we didn't have skimmers small enough to get inside the 
marshes, which is why we have started doing the vacuum barges. 
We have actually got trucks on barges that are inside those 
marsh areas vacuuming that oil from around the marsh area, 
because there is so much of it and it gets thick in those 
areas.
    I think those are instances right there that just shows the 
real-time that you talked about, the ability to real-time get 
resources there, because once you lose that real-time, it has 
moved on and then you have to start fighting it from a 
different angle.
    Mr. Green. Thank you, and thank you, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Green. Ms. Jackson Lee, please, 
5 minutes.
    Ms. Jackson Lee. Mr. Guidry, thank you for your work. I am 
going to ask a series of rapid questions to sort of build the 
record.
    Mr. Guidry, in your experience, have you ever seen an oil 
spill like this?
    Mr. Guidry. No, ma'am. The difference with this one and all 
the other ones, the other ones, eventually the source stops. 
This one here is like a thief in the night, it is not there 
today, tomorrow morning it is here, next day it is here or it 
hits you back again in the same spot. You know, things do not 
move very fast, boats move very slow, so you have got to fly 
over the site and find out where the oil is in the morning and 
then send the boats out to clean it up.
    Ms. Jackson Lee. You have worked 18 years--I am going to do 
some rapid fire questions. You have worked for 18 years and you 
have had oil spills and you have cleaned up oil spills, is that 
correct?
    Mr. Guidry. Yes, ma'am.
    Ms. Jackson Lee. The Gulf has gone on about its business.
    Mr. Guidry. Yes, ma'am.
    Ms. Jackson Lee. The oyster men and the shrimpers and the 
fishermen have gone on about their business.
    Mr. Guidry. Yes, ma'am. I am a former fisherman.
    Ms. Jackson Lee. I think that is important to note, and the 
reason is because the magnitude of this disaster I think is 
something that we clearly want to frame. But in terms of trying 
to fix the problems, let me again go back to a question I think 
I asked and would like to ask it more specifically.
    My understanding is that BP had a series of violations that 
may have been relevant to this well and that they were just in 
place, on record in one of our Federal agencies. In a 
legislative fix that might work, should we not have a certain 
number--for example, this was a high-risk drilling rig--certain 
number of violations could bring about an automatic shutdown 
for a period of time of that well. Mr. Guidry?
    Mr. Guidry. I really could not comment too much on the size 
of this, but I would tell you----
    Ms. Jackson Lee. If there were a number of safety 
violations that had been shown.
    Mr. Guidry. Yes, ma'am.
    Ms. Jackson Lee. Would it be appropriate for the Federal 
Government to shut down that well to ask for there to be remedy 
by the particular parties involved?
    Mr. Guidry. It could be, but I would have put some MMS 
people on those wells 24/7 to make sure that these problems did 
not happen.
    Ms. Jackson Lee. If they saw that it did happen, you would 
give them the authority to shut the well down?
    Mr. Guidry. Yes, ma'am.
    Ms. Jackson Lee. Thank you. Colonel.
    Col. Edmondson. Absolutely. I mean we do not need to be a 
country of reacting. It ought to be about proactive and the 
ability to do what you are talking about certainly would allow 
that.
    Ms. Jackson Lee. Do you think--and you have mentioned the 
fact that the Coast Guard strike teams have been very 
effective. Do you think enhanced resources and making those 
strike teams--I use a different terminology, like a SWAT team, 
but giving them the additional enhanced resources and training 
would be helpful as we move into these difficult drilling 
procedures. Colonel.
    Col. Edmondson. Absolutely, you are going to have to have 
that in place so they have the ability to move forward and move 
rapidly to move those resources in; yes, ma'am.
    Ms. Jackson Lee. The chain of command for me is enormously 
important. Do you think--and Mr. Guidry said something and I 
have heard this before of MMS individuals being on the rig and 
that would be certainly something to look at. Would you also 
think it is important to have a red phone on the rig that has 
the ability to go to the right people when you can perceive 
something is going to go wrong? I asked some of the officials 
of BP did they get a phone call that night and the answer was 
no. Do you think there should be a red phone call that reaches 
the appropriate persons even though this was in the midst of an 
emergency, so that reaction could start right then and there? 
Colonel.
    Col. Edmondson. You are certainly going to have to have 
that. You are going to have to have some form of communication 
and listen to everybody on that rig. The ability for anybody, 
even at the lowest level, when they see problems are occurring, 
they have got to be able to bring that to someone's attention. 
Most importantly, when that phone rings, someone has to pick it 
up and listen.
    Ms. Jackson Lee. If we were to--and this is a question 
where I do not want you to think that I am trying to get you to 
write legislation, but the Department of Homeland Security has 
been labeled as--and I think they have been very effective with 
the merger of so many different areas, the disaster homeland 
front line. We see man-made disasters and we see natural 
disasters, hurricanes. Expanding the jurisdiction of the 
Department of Homeland Security such that all the resources or 
the crisis bearing could fall under one department as relates 
to this kind of disaster, would that help your question of 
where is the boom, where are the skimmers, who is in charge; so 
that once something like this occurred, one call, one group of 
people tells whoever it is get this done.
    Col. Edmondson. We certainly should have learned that in 
Katrina, certainly from a Federal level to understand that that 
inventory is in place. But also the ability to understand from 
a Federal level, you have got to listen to the local people, 
you have got to, because what worked in one State is not going 
to work in other States. I think that flexibility--
communication, flexibility, and having plans in place of where 
your inventory is. I think that is vitally important.
    Ms. Jackson Lee. Or having one Federal Government entity 
and then working with the local officials, that might be 
helpful to you.
    Col. Edmondson. I think so. I do not want them to get so 
big that they become ineffective. I think when you get too big 
and you put too much on your plate, you become ineffective. We 
do that as individuals sometimes. I know I do, and I think you 
have got to be careful not to put too much on that plate, but 
give them ability. But I think you are moving in the right 
direction; yes, ma'am.
    Ms. Jackson Lee. Let me thank you.
    Mr. Carney. Thank you, Ms. Jackson Lee. Ms. Richardson, do 
you have questions?
    Ms. Richardson. Just a couple of very quick ones and then I 
am looking forward to us continuing.
    Colonel, it is my understanding that the State of Louisiana 
has received $50 million. How much have you guys spent and what 
have you spent it on?
    Col. Edmondson. Well, we spent it on emergency response 
efforts going on with the oil, the direct response to the oil 
that is approaching Louisiana, both on the State level and on a 
local level. I think that is what has been most important.
    Ms. Richardson. Specifically doing what though? When you 
say emergency response, what does that mean?
    Col. Edmondson. Personnel, resources, equipment. Again, all 
aimed at combatting the on-going effect of the oil as it 
approaches Louisiana. I can get the committee information on 
exactly what we spent it on. I think that would be better than 
just trying to remember the different things. But I know from 
my perspective, what I have used it on has been the people 
directly involved because I think that is where it should be 
exactly involved every day in combatting both very proactively 
and reactively the oil as it approaches Louisiana and making 
sure that it gets into those local areas.
    Ms. Richardson. So you will provide that to the committee 
how much has been spent and on what?
    Col. Edmondson. Yes, ma'am.
    Ms. Richardson. Has it all been spent?
    Col. Edmondson. I am not sure exact numbers, I know that 
the first $25 million has been. Again, that second $25 million 
has not come into Louisiana. I know there was some monies that 
was placed forward for some work within the coastline itself, 
but I am familiar with the first $25 million that we have 
looked at. In fact, that funding actually comes through the 
Department of Public Safety as far as the area to oversee and 
disburse that. Again, we do not disburse until we get actual 
evidence from a State agency that they spent it on that. It is 
all through the PIRFA process that the Federal Government uses 
to make sure we document expenditures of those monies.
    Ms. Richardson. Okay, thank you, Colonel.
    Mr. Guidry, you mentioned that strike teams in the past 
have physically gone into the marsh themselves and have cleaned 
the oil out. Did they cut, did they flush it out with water, 
what was the process used?
    Mr. Guidry. They direct the clean-up, but in the past, like 
in the roseau canes, we will cut a path and flush it out with 
pumps.
    Ms. Richardson. So you would cut a path to flush it?
    Mr. Guidry. Yes, we cut a path in the roseau canes and from 
there wash the oil out. We put boom on the outside so that when 
the oil comes out the skimmers can pick it up inside the boom.
    Ms. Richardson. You work for the State, sir?
    Mr. Guidry. Ma'am?
    Ms. Richardson. You work for the State of Louisiana?
    Mr. Guidry. Yes, ma'am.
    Ms. Richardson. Okay. That is a very important point that 
you just made because we saw that just today and there was an 
issue with that.
    Then finally for the record, I just want to say I equally 
was very frustrated. I did not understand why we could not just 
put a whole rim of boom around the site of the Horizon to be 
able to catch the oil before it even got further out. But I 
have got to tell you, once I physically saw it, with the waves, 
it only can provide limited protection. I think one thing we 
have learned out of this incident is that BP and any other 
provider that does oil drilling must also use some of that 
money to look at technology and research and make sure that 
what we really have can do some work. Because even the booms 
themselves cannot solve the problems.
    Thank you, very much, Mr. Chairman.
    Ms. Jackson Lee. Would the gentlelady yield for a moment? 
Could I just ask a quick question?
    Mr. Carney. Yes.
    Ms. Jackson Lee. Yield for a moment?
    Ms. Richardson. Yes.
    Ms. Jackson Lee. Thank you. Following up on her question, 
the headline here says ``BP Works on More Secure Well Cap.'' 
You made a very important statement, Colonel, it keeps flowing 
and we cannot clean up. Can you expand on that and the 
gentlelady's point about having the technology, the redundancy 
on clean-up if something happens? Clean-up but stopping what 
happened.
    Col. Edmondson. Just looking at the diverse shorelines that 
we have throughout the Gulf, I mean looking at our beautiful 
beaches, looking at our marshland, our estuaries and all that, 
all that area requires a different type of response. I think 
what is most important is that we had so much flow at the 
beginning that we were not even responding to because we did 
not know it was there. Then all of a sudden, it was there and 
we did not have the resources available, the real-time efforts 
to do those things. As we speak, it is still flowing. Even once 
we get that cap on it and they capture what they tell us is 
most of it, and hopefully it is, and hopefully those relief 
wells that are being drilled are going to be effective and they 
are going to work and do the things they need to. Then at that 
point, this marathon, maybe we can get towards the end of it. 
But I think that natural resource damage assessment has to be 
on-going, we have to look at the efforts and we have to make 
sure that this fight--we are in it for the long haul. I 
appreciate the fact and certainly you evidence here today in 
the comments you are making, I believe that y'all are also here 
to make sure those things happen, and I do appreciate that; and 
thank you.
    Ms. Jackson Lee. Thank you. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, Ms. Jackson Lee.
    Quickly for all three of you. Where have the bottlenecks of 
the information flow been that you can identify? Bottlenecks of 
information. Mr. Guidry, do you have a sense of that?
    Mr. Guidry. Not really.
    Mr. Carney. Okay, Colonel.
    Col. Edmondson. I think what I talked about earlier, I 
think having three different places of information that has to 
flow, whether it is the State command post and whatever stage 
you are in, and you have your National post which is now New 
Orleans, your Gulf post which is in Houma, Louisiana. I think 
getting that real time information is difficult when you deal 
with bureaucracy in each one as you move that information 
around. I think that is a bottleneck. I think that is when it 
is hard to understand that you can make a decision here, but it 
has still got to be approved over here and maybe over here. I 
think telling you I will get that answer tomorrow. Well, if you 
do not have it tomorrow, then we are now 36 hours, 48 hours 
into getting that stuff and then it is past the coastline, it 
is into the marshes, on the beaches, it affects the economy, it 
affects the seafood industry and that. I think the effect just 
moves on and multiplies when you do not have that real-time 
information and getting that where it needs to be.
    Mr. Carney. Mayor.
    Mr. Hibbard. I think certainly we saw bottlenecks at the 
State level getting down to the county level and the county 
level to the municipal level. The municipalities were not even 
included in the process until just recently.
    Last, I would say there was a bottleneck between 
professionals and laymen and we need to get that out.
    Mr. Carney. For the record, I had a shrimp po' boy for 
lunch. Okay? It was delicious, so thank you very much.
    Gentlemen, thank you so much for your testimony. We could 
probably do this another couple of hours anyway, but we have to 
be respectful of the other panels. Our hearts are out to you 
and certainly all those who lost family in the explosion. But 
we are in this for the long haul. My kids are long-distance 
runners and I know what it means to be in it for the long haul, 
and as long as I am in this Chair, we will stay here and work 
with you to make sure this kind of thing does not happen again.
    We will probably have further questions and we may come to 
you in writing. Please respond as soon as you possibly can to 
our questions if we have them. Please free to contact our 
subcommittee and our committee any time you think there is 
information we ought to have.
    We will adjourn this panel. We will reconvene in 5 minutes, 
so people can refresh themselves.
    [Recess.]
    Mr. Carney. We will call the second panel now. I want to 
welcome our second panel of witnesses and thank them for their 
patience. I think the first panel was very interesting and we 
needed to hear from them.
    Our first witness will be Rear Admiral Peter Neffenger. 
Rear Admiral Neffenger serves as the Deputy National Incident 
Commander for the Deepwater Horizon Oil Spill response. 
Previous to this assignment, he served as Commander of the 
Ninth Coast Guard District from May 2008 to April 2010. In this 
capacity, he was responsible for Coast Guard operations 
throughout the five Great Lakes, the St. Lawrence Seaway and 
parts of the surrounding States, including 6,700 miles of 
shoreline and 1,500 miles of international border with Canada.
    A native of Elyria, Ohio, Rear Admiral Neffenger was 
commissioned in 1982 at Coast Guard Officer Candidate School in 
Yorktown, Virginia. He has a diverse career of operational and 
staff assignments across the spectrum of Coast Guard missions. 
Notable among these, he was Captain of the Port, Federal 
Maritime Security Coordinator and Commander of Coast Guard 
Sector at Los Angeles/Long Beach, California where he was the 
senior Coast Guard operational commander for an area of 
responsibility encompassing over 300 miles of southern 
California coast, including the Los Angeles/Long Beach port 
complex, the Nation's largest.
    He has served in five Marine safety field assignments as an 
engineer on the U.S. Coast Guard cutter Gallatin; as Coast 
Guard liaison officer in the Territory of American Samoa; as 
Coast Guard fellow on the U.S. Senate Appropriations Committee 
and as a Chief of the Office of Budget and Programs at Coast 
Guard Headquarters in Washington, DC where he was the principal 
budget advisor to the Commandant of the Coast Guard.
    Rear Admiral Neffenger has earned three master's degrees in 
National Security and Strategic Studies from the Naval War 
College in Newport, Rhode Island; and Public Administration 
from Harvard University, Kennedy School of Government; and in 
Business Management from Central Michigan University--by the 
way, my wife's alma mater. He holds a bachelor's degree from 
Baldwin Wallace College in Berea, Ohio.
    Our second witness is Department of Homeland Security 
Assistant Secretary for Intergovernmental Affairs Juliette 
Kayyem.
    As Assistant Secretary, Ms. Kayyem has strengthened 
coordination of intergovernmental interaction across the 
Department, improving efficiency and consistency of 
communication with State, local, Tribal, and territorial 
partners, and ensuring the integration of their homeland 
security priorities into the policy development process.
    Under her leadership, Intergovernmental Affairs, or IGA, 
has assumed the primary communication and coordination role in 
a broad array of homeland security initiatives including grant 
processes and funding, drivers' license security, energy 
efficiency, and intelligence and information sharing with the 
State, local, and Tribal partners. In addition, IGA serves as 
the primary Tribal liaison for the Department coordinating over 
500 Tribes throughout the Nation on homeland security issues.
    From 2007 until her appointment by Secretary Napolitano, 
she served as the Massachusetts first Under Secretary for 
Homeland Security and the Governor's Federally designated 
homeland security advisor. In that capacity, she was 
responsible for developing State-wide policies on homeland 
security, with a focus on all-hazards strategic planning, 
prevention, and response, information sharing, 
interoperability, and energy security. Ms. Kayyem also had 
oversight of the Massachusetts National Guard.
    She is a 1995 graduate of Harvard Law School and a 1991 
graduate of Harvard College.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each to summarize his or her statement for 5 
minutes--for 5 minutes--beginning with Rear Admiral Neffenger.

    STATEMENT OF PETER NEFFENGER, DEPUTY NATIONAL INCIDENT 
COMMANDER, UNITED STATES COAST GUARD, UNITED STATES DEPARTMENT 
                      OF HOMELAND SECURITY

    Adm. Neffenger. I will do my best, sir.
    Good afternoon, Chairman Carney and distinguished Members 
of the committee. Thank you for the opportunity to testify 
today about the on-going response into the explosion and oil 
spill from the Deepwater Horizon mobile offshore drilling unit.
    What began as a massive rescue and subsequent search for 11 
who unfortunately were lost, has become the most complex spill 
our Nation has ever encountered and certainly the most complex 
event of my career.
    This spill is further complicated by the lack of human 
access to the source, the challenge of measuring the total 
volume of oil discharge, the fact that the oil is spreading out 
in all directions, and that we have a major new oil spill every 
day. This is not a single monolithic spill, but rather has 
become thousands of small spills that in total threaten all 
five of the Gulf States and the livelihoods of the citizens of 
the Gulf coast.
    As you have already heard in previous testimony, there are 
thousands of people and hundreds of organizations across the 
Gulf coast that are responding to this spill. So I can 
understand why it sometimes is not clear how we are organized 
and command and control functions. Let me try to explain some 
of how that works.
    One of the lessons that we learned coming out of Exxon 
Valdez and what led to the Oil Pollution Act of 1990 was that 
during major incidents, you need National level leadership to 
set strategic direction, coordinate National policy, facilitate 
collaboration among Federal, State, and local governments and 
coordinate strategic communications across Government and the 
affected communities.
    In this case, you have a National Incident Commander named, 
and that is Admiral Thad Allen, and as noted, I am his Deputy 
and was named as such on the second of May of this year.
    At the next level, we have the Federal on-scene coordinator 
with the statutory authority for oversight of oil spill cleanup 
on the water in the case of the Coast Guard. That individual 
directs the operation, overseeing the incident commands and we 
have one in Houma, Louisiana, one in Mobile, Alabama. Those are 
the two most active incident commands. We have also established 
incident commands in Galveston, Texas as well as Miami, 
Florida, for potential impacts in those areas.
    The Federal on-scene coordinator sits at the Unified Area 
Command, and so the purpose of the area command is to 
coordinate resources amongst those various incident commands, 
but the actual decision-making on a daily basis takes place in 
the incident commands. So those individuals in Houma, in 
Mobile, in Miami, in Galveston, Texas make determinations for 
the geographic area for which they are responsible.
    So in an incident of this complexity, you have to have 
different levels of organization to manage what are the 
countless numbers of activities across the thousands of miles 
of water and coastline. They do not do it alone, the area 
command, as you have heard, has had State representation from 
the very outset of the event, and in fact it is critical that 
the State be involved with us from the outset because they know 
best how to protect their coastlines and we can speak more to 
that during the question session.
    Given the scope and magnitude of this event, we brought 
together all levels of government, industry, nongovernmental 
organizations, and volunteers to respond in unprecedented 
numbers.
    As I said, my primary purpose is to ensure a tight linkage 
among all those levels, to look for problems and try to correct 
those problems so that we have effective command and control, 
the guiding principle of which is to push authority to the 
lowest possible level so that on-scene leaders can act and can 
act immediately with flexibility and autonomy to employ 
effective response strategies. We continue to work to make that 
tenet a reality across the Gulf region. We learned a lot of 
lessons along the way and it is improving and getting better 
with each day of this response.
    I have personally briefed every day the five States' 
Governors. I do this 7 days a week each day, and we typically 
have at least three of the five Governors on those calls. I 
have received valuable and very frank feedback that has alerted 
me to areas where we needed to adjust operations, expand 
efforts, and incorporate greater State and local participation.
    Harnessing local knowledge and leadership is a continuing 
priority and I would agree with Colonel Edmondson's assessment 
of the need to involve State and local--I mean local 
individuals. There are a number of examples of how we have done 
that, pushing liaisons out to each of the parish presidents' 
offices in the State of Louisiana, to the county supervisors' 
offices in the other States. We have liaisons assigned to each 
Governor and we have liaisons at the local branch levels, which 
are down in the local communities. So we have attempted to 
continue to engage at greater and increasing numbers.
    We have established vessel of opportunity programs where we 
are giving local control of those vessels to local communities 
under the over-arching guidelines established by the incident 
commanders.
    I have spent a significant amount of my time in the Gulf 
region over the last 2\1/2\ months. I have visited spill sites 
numerous times and have worked a lot with the incident commands 
to determine what it is they need and how we can do it. We have 
identified every--with respect to resources there are a number 
of critical resources and we have heard of some of those. We 
have identified every foot of fire boom in the world, we have 
established a supply chain for everything from dispersants to 
skimmers to boom. We have procured boom from all domestic 
manufacturers and we mobilized all east and Gulf coast offshore 
skimming vessels. To that end, we are now procuring nearly all 
Nationally produced snare, containment fire boom, and we have 
engaged every domestic boom supplier. Of note, the daily or the 
weekly production was a few thousand feet prior to this spill 
event. We are now producing domestically a quarter million feet 
of boom per week as a result of the demand placed by this.
    So in closing, I think the success of this response hinges 
on a unified coordinated effort at all levels in reaching down 
as deep into the local organizations as you--or local 
communities as possible. We will be here as long as it takes to 
get this region cleaned up and made whole again. The Coast 
Guard will not be going away. As was noted, we live here too. 
This is a community. I spent 8 years of my life in New Orleans 
in the Coast Guard and so I have a lot of affection and concern 
for this area.
    So I thank you for this opportunity and I welcome any 
questions you may have.
    [The statement of Admiral Neffenger and Ms. Kayyem 
follows:]

       Prepared Statement of Peter Neffenger and Juliette Kayyem
                             July 12, 2010

    Good morning Mr. Chairman and distinguished Members of the 
committee. We appreciate the opportunity to appear before you to 
discuss the Federal Government's response to the Deepwater Horizon Oil 
Spill specifically the chain of command for responders.
    On the evening of April 20, 2010, the Transocean-owned, BP-
chartered, Marshall Islands-flagged Mobile Offshore Drilling Unit 
(MODU) DEEPWATER HORIZON, located approximately 72 miles Southeast of 
Venice, Louisiana, reported an explosion and fire on-board. This began 
as a Search and Rescue (SAR) mission--within the first few hours, 115 
of the 126 crewmembers were safely recovered; SAR activities continued 
through April 23rd, though the other 11 crewmembers remain missing.
    Concurrent with the SAR effort, the response to extinguishing the 
fire and mitigating the impacts of the approximate 700,000 gallons of 
diesel fuel onboard began almost immediately. In accordance with the 
operator's Minerals Management Service (MMS)-approved Response Plan, 
oil spill response resources, including Oil Spill Response Vessels 
(OSRVs), were dispatched to the scene. After 2 days of fighting the 
fire, the MODU sank into approximately 5,000 feet of water on April 
22nd. On April 23rd, remotely operated vehicles (ROVs) located the MODU 
on the seafloor, and, on April 24th, BP found the first two leaks in 
the riser pipe and alerted the Federal Government. ROVs continue to 
monitor the flow of oil. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As the event unfolded, a robust Incident Command System (ICS) 
response organization was stood up in accordance with the National 
Response Framework (NRF) and the National Oil and Hazardous Substances 
Pollution Contingency Plan (NCP). ICS is utilized to provide a common 
method for developing and implementing tactical plans to efficiently 
and effectively manage the response to oil spills. The ICS organization 
for this response includes Incident Command Posts and Unified Commands 
at the local level, and a Unified Area Command at the regional level. 
It is comprised of representatives from the Coast Guard (Federal On-
Scene Coordinator (FOSC)), other Federal, State, and local agencies, as 
well as BP as a Responsible Party. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The Federal Government has addressed the Gulf Oil Spill with an 
all-hands-on deck approach from the moment the explosion occurred. 
During the night of April 20th--the date of the explosion--a command 
center was set up on the Gulf Coast to address the potential 
environmental impact of the event and to coordinate with State and 
local governments. After the MODU sank on the 22nd, the National 
Response Team (NRT), led by the Secretary of Homeland Security and 
comprised of 16 Federal agencies including the Coast Guard, other DHS 
offices, the Environmental Protection Agency (EPA), National Oceanic 
and Atmospheric Administration (NOAA), Department of Interior (DOI), as 
well as Regional Response Teams (RRT), was activated.
    On April 29, Secretary Napolitano declared the event a Spill of 
National Significance (SONS), which enhanced operational and policy 
coordination at the National level and concurrently allowed Admiral 
Allen's appointment as the National Incident Commander (NIC) for the 
administration's continued, coordinated response. The NIC's role is to 
coordinate strategic communications, National policy, and resource 
support, and to facilitate collaboration with key parts of the Federal, 
State, and local governments.
    The NIC staff is comprised of subject matter experts from across 
the Federal Government, allowing for immediate interagency 
collaboration, approval, and coordination. While the FOSC maintains 
authorities for response operations as directed in the National 
Contingency Plan, the NIC's primary focus is providing National-level 
support to the operational response. This means providing the Unified 
Command with everything that it needs--from resources to policy 
decisions--to secure the source and mitigate the impact. This will be a 
sustained effort that will continue until the discharges are 
permanently stopped and the effects of the spill are mitigated to the 
greatest extent possible. Beyond securing the source of the spill, the 
Unified Command is committed to minimizing the economic and social 
impacts to the affected communities and the Nation.

         VOLUNTEERISM AND COMMUNICATION WITH LOCAL COMMUNITIES

    A critical aspect of response operations is active engagement and 
communication with the local communities. Several initiatives are 
underway to ensure that happens.
    1. Active participation and engagement in town hall meetings across 
        the region with industry and Government involvement.
    2. Coordination of public involvement through a volunteer 
        registration hotline (1-866-448-5816), alternative technology, 
        products, and services e-mail (<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8fe7e0fde6f5e0e1fcfaffffe0fdfbcfeee0e3a1ece0e2">[email&#160;protected]</a>), and 
        response and safety training scheduled and conducted in 
        numerous locations.
    3. More than 35,889 inquiries received on-line via the response 
        website (www.deepwaterhorizonresponse.com) with more than 
        34,478 inquiries completed, with 4-hour average time of 
        response.
    4. Over 12 million page hits on response website.
    5. Over 754 documents created/posted to response website for public 
        consumption.
    6. News, photo/video releases, advisories to more than 5,000 media/
        Governmental/private contacts.
    7. Full utilization of social media including Facebook, YouTube, 
        Twitter, and Flickr.
    8. Establishment of Local Government hotlines in Houma, LA (985-
        493-7835), Mobile, AL (251-445-8968), New Orleans, LA (985-902-
        5253).

                               CONCLUSION

    From the very beginning of this crisis, the Federal Government has 
been in charge of the largest environmental clean-up effort in our 
Nation's history. Thousands of ships and other vessels have been 
deployed to the Gulf. There are now nearly 46,000 personnel working 
across four States to contain and clean up the oil. These personnel are 
assisting in efforts to prevent more oil from coming ashore, clean 
beaches, train response workers, and help process claims.
    On July 7, Admiral Allen announced the launch of a new Federal web 
portal--RestoreTheGulf.gov--dedicated to providing the American people 
with clear and accessible information and resources related to the BP 
Deepwater Horizon oil spill response and recovery. The site is designed 
to serve as a one-stop repository for news, data, and operational 
updates related to administration-wide efforts to stop the BP oil leak 
and mitigate its impact on the environment, the economy and public 
health--unifying web resources across the administration and increasing 
public access to the latest information.
    The Unified Command continues to attack the spill. As of July 6, 
2010, over 28 million gallons of oily water have been successfully 
recovered using mechanical surface cleaning methods. Further, over a 
million gallons of surface dispersants have been applied to break up 
the slick, and controlled burns have been used as weather conditions 
have allowed. In addition to the on-going offshore oil recovery 
operations, significant containment and exclusion booms have been 
deployed and staged strategically throughout the Gulf region. These 
booms are used to protect environmental and cultural resources, as well 
as critical infrastructure, as identified in the applicable Area 
Contingency Plans (ACPs). To date, nearly 3 million feet of boom have 
been positioned to protect environmentally sensitive areas. Fourteen 
staging areas and three regional command centers have been established 
across the Gulf Coast States. The Secretary of Defense approved the 
requests of the Governors of Alabama (up to 3,000), Florida (up to 
2,500), Louisiana (up to 6,000), and Mississippi (up to 6,000) to use 
their National Guard forces in Title 32, U.S. Code, status to help in 
the response to the oil spill.
    Thank you for the opportunity to testify today. We are ready to 
answer any questions you may have.

    Mr. Carney. Thank you, Admiral. Secretary Kayyem.

     STATEMENT OF JULIETTE KAYYEM, ASSISTANT SECRETARY FOR 
   INTERGOVERNMENTAL AFFAIRS, DEPARTMENT OF HOMELAND SECURITY

    Ms. Kayyem. Thank you, Chairman Carney and Members of the 
committee. I thank you for the opportunity to testify before 
you on the BP Deepwater Horizon oil spill and the efforts that 
the Department of Homeland Security, the Coast Guard, and our 
Federal family have undertaken to respond to this incident in 
coordination with our State and local partners. So my testimony 
will focus on that fact.
    My history, as you said, Chairman, I was a State homeland 
security advisor, I worked for a Governor, I now work for a 
former Governor. So I understand quite well the priority of 
focusing State and local--of understanding what State and local 
officials know, understanding their unique needs of their 
community and environments, unlike any other entity.
    As the Assistant Secretary for Intergovernmental Affairs at 
DHS, one of my roles, ironically actually, was to serve as the 
intergovernmental lead in the SONS, the Spill of National 
Significance, exercise just a few months before this spill. 
During that exercise, we were able to identify information gaps 
with our State and local partners and update our plans to 
address these. Obviously, as Admiral Neffenger said, the 
exercises in no way were reflective of what we are experiencing 
today, we admit that wholeheartedly.
    From the outset, we knew that working collaboratively with 
the State and local officials and responders closest to the 
incident would be essential in order to effectively coordinate 
this response and their input would be an invaluable resource 
for ideas and suggestions for improvement. This has been an 
unparalleled event with many challenges along the way, and we 
sought to learn lessons from the past and use this local 
knowledge and experience to inform our decision-making in every 
step of the response. We have learned as we have gone along, 
there is no question about it. I will describe some of the 
changes we made. We continue to try to improve every day, 
especially as the mayor noted in the previous testimony, very 
helpful for him to tell us and to tell you sometimes we are 
speaking in Coast Guardese or we are speaking in a language 
that is not understandable for his constituents. We have that 
as a take-away and we will continue to improve every day as we 
shift from the immediate response to the long-term recovery and 
some of the priorities the Secretary made as she takes on that 
essential and important agenda.
    So as I said, since Day 1, the administration has engaged 
in all-hands-on-deck response to this spill. As we transition 
from the search and rescue operation into a larger incident 
response, we begin then to more thoroughly engage with our 
State and local counterparts in Louisiana, Texas, Mississippi, 
Alabama, and Florida, with Texas sort of not being--being more 
engaged as of late because some of the tar balls have appeared 
there and we continue to engage indeed along the eastern 
seaboard. We have had a number of outreach efforts with the 
Governors in those States.
    These efforts were built upon the extensive coordination 
that took place prior to this event, including of course the 
Area Contingency Plans and the work that people like Roland 
from Louisiana, we have known him for a long time, the kind of 
work that we have been doing from the get-go on oil spills.
    We heard about the pipe leaking on a Saturday, I was down 
here by Monday and we had our first Governors' call on that 
Monday. We were in close contact with the Governors and their 
staffs and on that day the Governors' staffs were invited into 
the Unified Area Command. We made it a priority to set up 
different structures to allow State and local officials to have 
input into the response efforts and these structures took 
several forms. As I said, we had the calls with the Governors, 
they became daily by the beginning of May and we have held 
these daily morning conference calls with senior administration 
officials and the Governors of the affected States and followed 
up in the afternoon with daily calls with local officials in 
the afternoon. I think those were the calls that the Mayor was 
speaking about. These calls offer an opportunity for Governors 
and local officials to obtain the most current operational 
information and engage in a dialogue with the senior 
administration officials who are overseeing the response, like 
the Admiral, and to make suggestions or convey concerns. These 
include the briefings on leak stabilization, resource 
deployments, obviously a very large issue, and answers to 
questions officials have received from local constituents, 
primarily on claims, of course.
    For example, I will just give you examples, so that this 
does not sound so theoretical. On one of the daily calls, 
Governor Barber of Mississippi raised concerns about the 
communication capabilities of boats participating in the 
vessels of opportunity program. You will remember, a lot of 
boats, a lot of boat owners came forward, a couple thousand. It 
was a massive undertaking and the Coast Guard actually working 
with the State of Mississippi and all the States subsequently 
worked to put in place a task force system led by the Coast 
Guard boats to improve communication between the vessels and to 
get the resources available to those vessels, so maybe not 
every vessel had all the high-tech needs that the lead vessel 
would have but we had a way to be able to say there is oil 
here, we need to move here.
    As a result of these daily calls, it also became clear--so 
this is our lessons learned as we went along--that the response 
would benefit through increased and direct communication 
between the Governors and the officials running the multi-State 
incident command posts. In response, the Coast Guard and the 
Department set up deputy incident commanders. So instead of 
having it too top-heavy, this was the beginning of the flat-
lining of the response in each State. So these deputy incident 
commanders are in each State to give Governors direct access to 
the individuals running Coast Guard operations in their States. 
This meant that not all the Governors had to come to Houma or 
Robert--excuse me, Robert, Louisiana, that facility is now in 
New Orleans. It meant that we were able to get deputy incident 
commanders in each State. This also ensured that any questions, 
concerns, or requests from these Governors could be met 
promptly.
    I also want to make it clear that we are DHS-focused, Coast 
Guard-focused. This is being repeated in almost every level 
with the Federal family. So there are weekly calls between the 
Labor Department and the State workforce commissions, between 
OSHA and the State employment workforce commissions. I could go 
down--SBA, I mean, we are polling and working with the entire 
Federal family to make sure that their natural access points 
within the States and localities; for example, Health and Human 
Services working with the State health officials, are all 
getting the right information at the right time.
    In addition to the daily calls, I am just going to 
highlight one last thing, which the admiral focused on, which 
is the liaison officers and the changes we made. As the mayor 
said, sometimes the States have a governance structure that is 
not getting to the local level. We understand that now. We are 
used to working with Governors' offices because of the State 
EOC structure, that is how it works. So beginning in May, we 
began to deploy what we are calling the Coast Guard Liaison 
Program, it was originally called the Parish President Liaison 
Program but we realized we had other States that did not have 
parishes--and have deployed up to 80 Coast Guard officials in 
Louisiana, Mississippi, Alabama, and Florida to provide direct 
access to response for local officials. We have people sitting 
in these local government entities, whether they are mayors, 
county officials, whatever, trying to get to yes as quickly as 
possible. We hear in the media about a lot of the no's, but 
when you actually think of the number of decisions that are 
being made on the local level about boom deployment, boat 
deployment, whatever else, that is all being done because of 
the close and localized cooperation between the Coast Guard, 
the Federal family, and the State and localities.
    I have gone over my time, but I would be happy to answer 
any questions about the governance structure and our 
responsiveness. Thank you.
    Mr. Carney. Thank you, Ms. Kayyem. We will begin the round 
of questions, each Member getting 5 minutes, of course, and we 
will go until we are done. I will start and recognize myself 
for 5 minutes.
    Admiral, when was the Coast Guard first made aware of the 
explosion?
    Adm. Neffenger. On the day that it happened. I think--I do 
not know the exact time, I do not have a time line, but I think 
it was within about an hour and a half or 2 hours after the 
initial explosion that we were notified of it and notified that 
we had the potential for both a massive search and rescue 
operation as well as a potential for a major oil spill. There 
were 700,000 gallons of fuel oil on board that vessel, so from 
the very outset, we were concerned about a major oil spill as a 
result of the explosion.
    Mr. Carney. I saw pictures in the news and that was one 
hell of an explosion.
    Adm. Neffenger. It really was; yes, sir.
    Mr. Carney. Why did it take 2 hours to notify you?
    Adm. Neffenger. Well, again, let me double-check on that to 
be sure. We got initial notification, I think it probably took 
us awhile to get out there because it is quite a ways offshore 
and so by the time you out on sea and it is going to be at 
least a couple of hours by the time you get the helicopters 
launched.
    Mr. Carney. Okay, so the on-scene is different than the 
time you were notified.
    Adm. Neffenger. Yes, sir.
    Mr. Carney. Okay. Then what role did you play once you were 
there?
    Adm. Neffenger. Well, initially, it was a rescue operation. 
There were over 100 people on board the vessel and 11 of whom 
were very early on identified as missing. So the first was a 
rescue operation and then a coordination of those vessels that 
were on scene to fight the fire on board the vessel. The Coast 
Guard does not do firefighting but we coordinate the efforts of 
those who do come out and do firefighting. So the fire-fighting 
efforts were going on, we were coordinating those efforts as 
well as conducting the search. That search went on for, as you 
know, a period of about 36 hours or so.
    Mr. Carney. Right, right. Now within your experience, did 
the initial, the first responders and the initial response, did 
that all work as pre-arranged within the various chains of 
command that had been pre-established?
    Adm. Neffenger. Yes, sir, in my experience, it went 
according to our normal protocols and there were no delays in 
terms of that response. This is something that we do every day.
    Mr. Carney. Sure. You know, it is interesting because the 
initial reports were that there is no oil flowing out of this 
explosion. So we go from zero barrels a day to somewhere 
between 60 and 100,000. In fact, we have heard the range from 
zero to 100,000 and we are still hearing that. That, I imagine, 
has to cause some confusion obviously in terms of response, et 
cetera. When did you actually notice the oil starting to flow?
    Adm. Neffenger. Well, as I said, we thought from the outset 
that we had the potential for a major oil spill, so we actually 
activated our strike teams on the very next day, on the 21st of 
April. The first of the strike team members actually began to 
deploy the 21st, so the very next day, because again, there 
were 700,000 gallons of fuel oil on board. So at a minimum, we 
were concerned about that.
    We did not know what might happen with respect to the 
wellhead. We, like everyone else, assumed that the blowout 
preventer would have operated, although we do not typically 
monitor blowout preventers. But when the vessel sank on the 
22nd----
    Mr. Carney. Let me stop you there. Are you now monitoring 
the blowout preventers? Or are you relying on BP to do that or 
the industry to do that?
    Adm. Neffenger. Well, again, the Coast Guard does not have 
any statutory authority to do so. This is what was the Minerals 
Management Service responsibility to do that. I think that that 
is a question that needs to be asked with respect to Government 
oversight. Our responsibility is for the vessel itself, so the 
mobile offshore drilling unit. But all the drilling equipment 
and the connection to the drill floor was the responsibility of 
the Minerals Management Service.
    Mr. Carney. Okay. I apologize, you were talking about the 
time line.
    Adm. Neffenger. Yes, sir. So anyway, when the rig sank on 
the 22nd and took down with it that 5,000 feet of riser pipe, 
when it hit the bottom, it stirred up a tremendous amount of 
mud and silt. So the initial attempts to see what happened were 
clouded by that mud and silt. We did not know whether or not it 
was leaking, but again, we were already responding as if we 
were going to have a massive spill because it took 700,000 
gallons of fuel oil down with it. So at a minimum, we were 
concerned about that from the Coast Guard. So we had actually 
begun to mobilize and we pulled out the Area Contingency Plan, 
talked to the State and said we need to start mobilizing. In 
fact, we had State representatives in that. The incident 
command post in Houma was established on the 21st, the very 
next day. The State provided a State on-scene coordinator on 
that very day, and in fact, the very first incident action plan 
that was signed, talked about mobilizing resources for a major 
oil spill. So our approach was potential major oil spill from 
the outset and our typical response is to then start rolling 
the resources in, which we did with the strike team.
    As it became clear that there were significant leaks coming 
off the top of that--and it took about 24 to 36 hours for the 
turbidity to settle and really to get a good look at that 
riser. Then we realized that we had a potentially much, much 
larger problem on our hand. But as I said, we were already 
rolling a lot of resources in or had already begun the process, 
I should say to roll resources in.
    Mr. Carney. So it is beyond major at this point, by the 
time the resources are rolling and the turbidity has cleared, 
it is clear it is beyond a major spill. I am not sure what the 
next step is beyond a major spill, but we are in the midst of 
it right now.
    Adm. Neffenger. Well, it is a worst-case discharge at that 
point.
    Mr. Carney. Obviously. The question I had is would you have 
done anything differently had you known sort of what the 
magnitude of the spill was at that time? I mean what else could 
you have done had you known?
    Adm. Neffenger. Had we had perfect information, in other 
words.
    Mr. Carney. Yeah.
    Adm. Neffenger. I do not think that initially we would have 
done anything different. Remember, we were involved in a very 
massive search and rescue operation first. That always takes 
precedence, safety and preservation of life. So that consumed 
the better part of the first 12 to 18 hours, the initial 12 to 
18 hours and actually stretched out over a longer period as we 
looked at it. The rig, as I said, the rig did not sink until 
the 22nd but when it went down, we were still looking for--we 
still had some hope that the individuals might have survived on 
the rig, but just were not able to get free, that they might 
have been able to free themselves as the rig sank. But I do not 
know that there would have been any different response 
initially because of the need to mobilize rescue resources 
while at the same time beginning to move resources for a spill 
response.
    Mr. Carney. Okay, thank you. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. Thank you, admiral, 
for being here and testifying.
    Can you give us an update on the latest containment 
methods?
    Adm. Neffenger. Yes, sir. Well, today, this is actually a 
critical week with respect to containment and I do not know how 
familiar you are with the various options that have been in 
play, but essentially you have--if I can just describe for a 
moment what was occurring up until yesterday and then what the 
plan is moving forward.
    Up until yesterday, we had a vessel called the Discover 
Enterprise, which was the so-called top hat that you have heard 
about. This is the one where you can see the oil leaking around 
the skirt of it. That has been collecting somewhere in the 
neighborhood of 15,000 barrels daily off the top of that 
blowout preventer and lower marine riser package. Attached to 
one of the lines coming off of the side, it is called a choke 
line, is a vessel called the Q-4000. It has been collecting 
about 8,200 barrels on average a day. It has been burning all 
those off because it has no storage capacity, so it has just 
been flaring that off. So the combined total has been somewhere 
in the neighborhood of 24- to 25,000 barrels daily coming off 
the top of that leak.
    The plan moving forward, and this is actually taking place 
today, was to remove that top hat and to place instead a 
sealing cap on board. Basically another small blowout preventer 
that will sit on top of the current blowout preventer, seal 
tightly and allow for a 100 percent capture of the oil coming 
off the top of that wellhead, assuming you do not have any 
hurricanes or storms that would interrupt the vessel. So there 
are some additional vessels that have come on scene in order to 
collect that oil. However, it also gives the opportunity to 
attempt to shut the well in, which is the first thing that they 
will do.
    So there are Government scientists from the National 
Laboratories who have been in Houston for the past 80 days or 
so, and they have been reviewing, along with the BP engineers 
and others, the various steps associated with this. It really 
comes down to whether or not the well bore has integrity. So 
when they close it, there are three valves or three rams on 
this device that they are putting on this weekend. They will 
attempt to make the initial closure of those rams sometime in 
the next 48 to 72 hours, depending upon the testing and what it 
shows. They will see whether the well bore holds pressure, and 
they are expecting it to hold a certain amount of pressure. If 
it does, then it should be an indication that you have a well 
bore that is intact, and they may actually be able to shut the 
well in with no further outflow at all, with the final closure 
of the well being the completion of the relief well.
    I hope that is responsive to your question.
    Mr. Bilirakis. When will we know whether this method, this 
latest method, is successful? Why did we not try it say weeks 
ago?
    Adm. Neffenger. As I understand it, and again, I am not an 
engineer, a sub-sea engineer. But as it has been explained to 
me and I have spent a fair amount of time talking with our 
scientists and the scientists, engineers, that are working on 
this; part of the problem initially was that this arrangement 
of blowout preventer and this device called the lower marine 
riser package--these are actually two separate devices--when 
you have an emergency on board a mobile offshore drilling unit, 
the first line of defense of course is the closure of the 
blowout preventer. That is supposed to have sealed it off. The 
second is what is called an emergency breakaway, which should 
have allowed that second piece of equipment called the lower 
marine riser package to break free and pull off the top. Both 
of those failed, and that of course, is--the ultimate question 
is how did that, how did you have a fail of all the fail-safe 
systems?
    Well, because that package did not pull off as designed, 
there was no way to--had that top package pulled off, you would 
have had an ability to immediately attach another blowout 
preventer because all the fittings would have been exactly 
right. So the intervening time it has taken them to both--and 
you had the blowout preventer that got kinked over at about a 
5-degree angle. So over the intervening weeks, they have slowly 
been straightening the blowout preventer, straightening the 
fittings, fabricating new fittings to go on top of something 
that was never designed to take a blowout preventer, and 
actually fabricating a new blowout preventer. It just took--as 
I understand it, it just took those intervening days to do 
that. But they started working on this procedure immediately 
when they determined that that piece of equipment did not come 
off the top.
    But all that tells me is that this is an exceptionally 
complex undertaking underwater, if not frustrating, that it 
takes as long as it does to see results.
    Mr. Bilirakis. Okay, thank you. I would like to talk about 
the use of dispersants. Representatives from the Southern 
Shrimping Alliance, the director of which lives in my district, 
they have expressed deep concern that the use of dispersants 
poses a threat to certain species in the Gulf of Mexico, 
including the shrimp. John Williams, who is executive director 
of the alliance, wrote NOAA and EPA weeks ago but has not 
received a response. My question is why are dispersants still 
being used when the EPA called for BP weeks ago to find a less 
toxic means of breaking up the oil slicks at the surface and we 
have no clue what type of long-term ecological impact 
dispersants have on the seafood industry, but in general. Are 
there alternative technologies and then also if so, why are we 
not using these technologies?
    Adm. Neffenger. I think you rightfully note that the EPA is 
the governing agency for use of dispersants and they have 
been--we have worked very closely with them with respect to how 
to use those and how to use them effectively. They have used 
very carefully at the toxicity of the current dispersants, they 
are continuing to conduct tests. I will tell you that the goal 
is to minimize their use as much as possible.
    If you have good weather windows, you can skim, burn, and 
otherwise attack the oil mechanically and significantly reduce 
the number of dispersants that you use. But the real tradeoff 
is between shoreline impact, ultimately shoreline impact and 
the potential environmental damage that that can do, 
particularly in sensitive marsh areas and rookeries and the 
like, and using dispersants to knock down that a bit. The other 
reason that they use dispersants is to knock down the volatile 
compounds coming up around the vessels because those pose, not 
just hazards to human beings, but explosion hazards out on the 
sea.
    So to that end, EPA has worked very carefully to set levels 
of dispersant use that they would like to see not exceeded. 
Those for the most part have been adhered to, although there 
have been times when operations have dictated use of higher 
levels. The hope is that this week if they are able to shut the 
well in, then we can stop using dispersants entirely because I 
think that no one ever expected to be using dispersants over 
this extended period of time.
    Mr. Bilirakis. Thank you very much, I appreciate it. Mr. 
Chairman, I yield back.
    Mr. Carney. Mr. Green for 5 minutes. We are going to adhere 
closely to 5 minutes.
    Mr. Green. Thank you, Mr. Chairman and thank you, admiral, 
for your testimony today. I thank the other witness as well. 
But I also thank you, admiral, for your service to our country. 
We appreciate you greatly.
    Admiral, there is not a one-size-fits-all response. You 
indicated that you initially assumed that you had a major oil 
spill. Do you make a distinction in your mind between a major 
oil spill and what we have with reference to the wellhead and 
oil continuing to flow from that wellhead at an enormous rate?
    Adm. Neffenger. Well, I think that it is a new major oil 
spill every day for us. That is the unprecedented piece. I mean 
we have an event that has a beginning right now, but most oil 
spills have a beginning, middle, and end, the Exxon Valdez, 
even the very large ones are generally bound by an event. You 
have a full release and then you are done.
    So I think what makes this the most challenging oil spill 
certainly that I have been involved in and probably that this 
country has faced is the fact that it is on-going and it is 
continuous. So even on a good day when you can collect a lot of 
oil by skimming, you can burn a lot of it off and you can 
collect a lot through the containment systems, you are still 
facing another day the next day of the same thing.
    Mr. Green. If I may, Admiral, because time is of the 
essence, when did you first determine that you needed to throw 
everything that you have at it?
    Adm. Neffenger. I think when we saw those leaks, when we 
realized that we did not have--the blowout preventer did not 
work and when the first images of those individual leaks coming 
off the riser pipe were seen, then we knew we had a real 
problem.
    Mr. Green. When did you conclude that you did not have 
enough resources immediately available to contain this spill?
    Adm. Neffenger. Well, I just think back in my own 
experience, I've always assumed I do not have enough resources 
available because you cannot get everything you need fast 
enough. As an operational commander, I have always said send me 
everything you can find and if I do not need it, I will send it 
back home.
    Mr. Green. In this case, when did you say send me 
everything that you can find?
    Adm. Neffenger. I think it was within the first few days of 
discovering that we had that leak coming out.
    Now again, I remind you that I became involved on the 
second of May, but I can tell you that when I arrived down here 
on the third of May, I saw people asking for everything they 
could get their hands on. Now the interesting thing is that as 
I mentioned before in my opening statement, there were only a 
few thousand feet of boom being manufactured weekly in this 
country prior to this spill, for obvious reasons. There was not 
a great demand for it. So it takes some time to ramp up 
production and it certainly takes some time to ramp up 
production of bigger ticket items like skimmers, particularly 
the types of skimmers that you need for in-shore and near-
shore.
    Mr. Green. I have two additional questions, Admiral, so I 
will have to intercede. One is this, have you received an 
estimate or a guesstimate as to the size of the pool of oil 
that the spill is emanating from?
    Adm. Neffenger. The reservoir itself?
    Mr. Green. Yes.
    Adm. Neffenger. I just know that it is considered a 
productive reservoir. I think I would refer that question to--
in fact, I can take that question back to the BP engineers to 
get you an answer as to how much they might expect to produce 
from that. But I do not have that answer at my fingertips.
    Mr. Green. I would like for you to, if you would, give us a 
written response.
    Adm. Neffenger. I can do that.
    Mr. Green. My next question is, given what has happened 
this time and while your worst-case scenario, well, your major 
oil spill did not coincide with what this has become, a worst-
case scenario, what would you need and what resources would you 
need, and what would you do differently if you had the 
opportunity to have the resources necessary? How would you go 
about this, coping with this and making sure that you had 
minimal impact by virtue of resources that you could utilize to 
impact the spill itself?
    Adm. Neffenger. I think we would always have been 
challenged by moving resources in, because again, you have--
there are a lot of resources on the Gulf coast and most of 
those moved right away, the large skimming vessels. So getting 
out to the source was not the initial concern, it was really 
preparing, getting enough boom and other protective devices and 
materials and technologies along the beaches as you look at the 
potential for an impact across a 5-State region. That is the 
unprecedented piece and you have hundreds and hundreds of small 
communities and sensitive areas and the like. Most oil spills 
are limited in geography as well as limited in time. So you can 
work to move those massive resources that you have to those 
areas. So I think that the challenge is thinking about what 
type of capacity do you need to have in reserve for something 
that threatens this large of a geographic area.
    Mr. Green. Thank you.
    Mr. Carney. Ms. Jackson Lee, 5 minutes, please.
    Ms. Jackson Lee. Mr. Chairman, our colleague has to leave 
and I will yield to my colleague from California.
    Mr. Carney. All right.
    Ms. Richardson. Thank you, the gentlelady from Texas and 
Mr. Chairman.
    I am going to be very brief in my questions and if you 
could answer as much as possible yes and no, that would be 
greatly appreciated.
    No. 1, Admiral, could you please provide to this committee 
the time line for both the skimmers and the boom, how many we 
have received, where we got them from and what is our plan 
forward? You do not have to give it to us right this moment, 
but within the next, preferably 48 hours, if you could give us 
the time line. I know it has gone anywhere from 300 to 447 3 
weeks ago to now I think somewhere around 500-something. I 
think it is supposed to get to 750. So if you could let us 
know, because I think that is a key point in how the recovery 
or the response occurred.
    My second question, Ms. Kayyem, clearly from the comments 
that have been made from the first panel, there is a concern 
about the terms of what is being communicated. I have watched 
the admiral make his presentation, Admiral Allen, and although 
it was excellent and all of that, to the general layman, it is 
quite complicated. So would you please take back to the 
Secretary for her very serious consideration of immediately, 
not lessons learned next time, but now, how quickly can we get 
a crew out here to begin to televise on a daily basis pictures 
of what is happening, go out in the boats, so people will 
accurately know what is going on. Because as I said in my 
beginning comments, I have not found the coverage to be 
accurate thus far, of what I viewed of the media in terms of 
the entire coverage.
    The next is----
    Ms. Kayyem. Yes, I will. Thank you.
    Ms. Richardson. Okay. Admiral, if you would please--I do 
not know if you had an opportunity to hear Mr. Guidry, but he 
works for the State and when we were out there today in the 
impacted marsh, he admitted from the State level that one of 
the processes that they have used in the past has been to cut 
and to allow the flow to go through. Apparently there is 
disagreement out there in the sensitive area where we were, 
which was Pass a Loutre, of allowing that. So would you please 
double back and make a commitment to finding out if the State 
has already allowed it, why is there a concern now in the 
sensitive area? If I am not mistaken, you are in charge. So if 
you are in charge, the Coast Guard is in charge, what my 
request would be is if there is any disagreement, test one or 
two, and if it works, then we know. But to hold back and to 
allow it to sit there when that has not always been the 
practice that has been used I think certainly merits your 
review.
    Adm. Neffenger. I will take a look at that and we will get 
a report back to you.
    Ms. Richardson. Thank you, sir.
    Then my last comments that I just wanted to make was a 
little bit of the facts of what I have learned, and I am on my 
way to learn some more. One, I want to say that to my 
knowledge, over 600 media individuals have been allowed the 
opportunity to view what is going on. I do not think that has 
been clearly communicated, that there has been a very free 
moving back and forth.
    No. 2, 75 Members of Congress have been out here. There are 
46,000 workers out there working right now every day, many of 
them from 6:00 a.m. in the morning until 10:00 at night, and 
that is not being said.
    No. 3, finally, what I think is most important, my closing 
point, is to your liaisons. Commander Dan Precourt, who is in 
the Tammany area in Slidell, and Commander Claudia Guiser, I 
just want to say what incredible people and what they are doing 
and the folks all who are working with them, not just with the 
Coast Guard, but other teams as well, local, State, and so on. 
The people, what they are doing, the passion that they have, 
they are doing everything that they can. If they could lay 
their bodies out there and stop one more seep, they would do 
so. I do not think enough people know it. It is our job to make 
sure that they are aware of it and to give them the resources 
that they need.
    But I am very grateful for what has happened and hopefully 
we will make sure that this never occurs again.
    Thank you very much. Thank you, Mr. Chairman.
    Mr. Carney. Thank you. Ms. Jackson Lee, you may reclaim 
your time now.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
thank the witnesses very much and to admiral, we meet again in 
New Orleans, as you well know, it should be noted well that you 
were ever present during Hurricane Katrina in being first on 
the search and rescue of 22,000 individuals. That number may 
have gone up out of the waters of Hurricane Katrina right out 
of this city, and again, we want to offer our appreciation.
    To Madam Secretary, let me just suggest beyond those who 
are working here, to make it very clear that in the instance of 
this administration, a quick response has been evident. The 
President's establishment of a task force that included the 
Secretary of Homeland Security, the many hours that the EPA 
Administrator has been on the ground, the Secretary of the 
Interior, collaborative work of the Secretary of Homeland 
Security and, of course, the U.S. Coast Guard that has dual 
jurisdiction in transportation and homeland security have been 
ever-present. I think that is important because it is difficult 
to explain the work that the Government is doing.
    I was with the EPA Administrator this weekend and I know 
that she has spent a number of hours, along with the 
Secretaries, Secretary of the Interior, Secretary of Homeland 
Security. This is important because as you heard the Colonel 
say, are you going to leave us, are you going to stay and to 
finish the mission?
    My question to you, Madam Secretary, are we going to finish 
the mission? Two, what are you doing to answer the question of 
the mayor as it relates to more resources from BP to help them 
with their tourism quandary that they are in? Also, his 
question as to how we can translate technicalese language, 
reporting language on conference calls to comforting language 
to businesses and citizens.
    Ms. Kayyem. Well, let me begin with the first one, which is 
no one is going anywhere. I do not just speak for the Coast 
Guard or the Department. To describe the number of Federal 
agencies who are working with the States and localities on 
everything ranging from the health issues and the EPA issues, 
which you described, to worker exploitation, to the 
environment, marshland, and clean-up is an amazing relationship 
between the Federal Government, the States, and localities. 
Part of what their job is, is to not only help right now, but 
to lay a foundation for the important long-term reconstruction 
and recovery of this area that is not just about the 
environment and the waters, but of course about the people who 
have lost jobs or who may have to change jobs. So all of those 
are part of the mandate that Secretary Mabus, as the President 
had described and one that we are in partnership with Secretary 
Mabus' team. You know they have been down here a couple of 
times already, because we view both the response and the long-
term recovery as hand-in-hand.
    To the last point about the speaking in--being able to 
speak to communities, we heard that, we hear that, and we will 
continue to do that. Part of that is being able to explain to 
people sort of outside the noise of a lot of the complaints 
that we have received. We are not immune to what we see on TV 
either and so I asked this morning, just to give you an 
example, because I hear it. It sounds like we are not 
permitting emergency permits given the speed by which we need 
to get things done and I actually learned this morning that of 
the emergency permits on the environmental side by the U.S. 
Army Corps of Engineers, they have gotten 101 permit requests, 
79 have been issued, only 8 are pending.
    Ms. Jackson Lee. I only have a few more seconds.
    Ms. Kayyem. Yes. So in terms of putting this in perspective 
for people to know the speed by which we are working.
    Ms. Jackson Lee. Thank you very much.
    Admiral, if you would, strike teams have been very 
effective and I think people were confused about the line of 
command and who was leading, if you will. I have always or I 
have cited what is going on with BP as a cardiac surgeon having 
the talent to operate on a patient but having no talent to 
close the patient and the patient bleeds to death. What would 
be helpful in terms of more resources, more knowledge on 
technology on our strike teams? Secondarily, has BP, after the 
June 9 letter of Admiral Watson, provided you with their 
redundancy if Plan B and C do not work? What then are we 
expecting and what kind of enforcement will the unified command 
have, the strike teams have, the Federal Government have on the 
fact that they have no further answers or making them get an 
answer?
    Adm. Neffenger. I will start with the first question on the 
strike teams. I think that is a relevant question. You know, we 
have three strike teams in the Coast Guard, they are managed 
out of the National Strike Force Coordination Center in 
Elizabeth City, North Carolina. I think it is important to take 
a look at what type of resourcing we need there going forward 
and what we learn out of this spill. They are sized for a 
certain type of expectation and I think that this spill 
response has taught us that maybe we need to take a look at 
what those expectations are. So I think that is a good question 
to ask.
    Second, with respect to the letter to BP, they have indeed 
provided a plan for redundancy. I described part of that plan 
just a moment ago with this cap, but there is a significant 
additional collection capacity that is on scene in the event 
this cap does not work, that we believe will be adequate to 
contain everything coming off of the top of that. If it is not, 
then they will have to continue--well, I will put it this way, 
if what they currently attach to it is not enough to collect 
it, then they have got additional vessels on hand that we 
expect them to bring into the fight to continue to collect.
    So I think that moving forward, they have provided us with 
assurances that they understand the need for redundancy, they 
have not yet failed to provide anything that we have asked for 
and we are hopeful that the combination of what they are 
attempting this weekend and the additional vessels that have 
come on scene should be enough to contain 100 percent of what 
is coming out and/or close it in completely.
    Ms. Jackson Lee. You will not be giving up?
    Adm. Neffenger. No, ma'am; no, as I said before, we are in 
this until it is over, however long that is. So this is my job 
for a long time.
    Ms. Jackson Lee. Thank you, Mr. Chairman.
    Mr. Carney. Thank you, ma'am. I hope not too long.
    [Laughter.]
    Mr. Carney. But we are glad you are here.
    Now the last SONS exercises in March of this year, were any 
of the lessons learned there brought to bear in this particular 
case?
    Adm. Neffenger. Well, what I would say is you learn a lot 
of immediate lessons out of exercises and communications is 
always one of the first lessons. You have to talk to people up 
and down and sideways. It is always the greatest challenge.
    I think the real challenge in this one goes back to what I 
mentioned earlier and that is that it affected so many 
different communities so quickly and it is on-going. This is 
really the first response where you are already dealing with 
recovery and restoration issues in the middle of an on-going 
response.
    So some of those lessons are always carried forward. The 
final after-action report I do not believe has been done yet 
for that, but as I said, the initial lessons are that you need 
to establish a National incident command, that was one that we 
learned and we did that immediately as this was declared a 
Spill of National Significance. You need to work very quickly 
on establishing effective communications and getting a good 
handle on the information flow. As you know, those have been 
challenges, but we are getting better with that as we go along.
    Ms. Kayyem. That was exactly the lesson that we learned 
working with the Coast Guard, in the Office of the Secretary, 
was the inner-governmental communications could not be fast 
enough or constant enough given, in that case, an exercise that 
just hit I think two States and the east coast. Given the 
breadth and depth and just how long this has been, that is why 
we have so many people deployed, that is why we established a 
liaison program and, as I said, we are learning as we go along. 
The States are one thing, and as you heard from the mayor, they 
have communications issues within their own chain of command 
and within their own State. Where did the $50 million go that 
BP gave to the State, that is something that the States will 
have to answer to and so there is a lot of--just because we are 
talking to a Governor's office does not mean that that is going 
to be acceptable or necessary for the locality. So that is why 
we deployed these 80 folks into only local parishes or 
jurisdictions.
    Mr. Carney. One thing we learned from the previous panel is 
the issue of flexibility. I think that word was said about half 
a dozen times. In terms of communication, Madam Secretary, 
where are you going to go with the flexibility of 
communication, you know, to take input from locals who seem to 
know how to respond, who have done it in the past and work that 
all the way up to the President if need be?
    Ms. Kayyem. I think some of them have. So I think part of 
our lessons learned is, No. 1, do people know where to go to 
actually--with their ideas or their response plans? I think, as 
you heard, we have worked that through much better now. I think 
part of that is because people see Coast Guard officials in 
their local EOCs, they know how to access the Coast Guard at 
the State EOCs. We have got a lot more people deployed, so they 
know how to access it. That is the first thing.
    The second is a much more difficult issue, which I will 
just be blunt with you about. Sometimes we cannot get 
agreement. I mean you have seen it on some of the more large, 
grand proposals that have come out of some localities. 
Sometimes there is just going to be reasonable disagreement. 
What we are trying to do is explain to people why we are going 
to go one path and not the other. So we are taking seriously 
both the access to information issue and speaking maybe to more 
people more effectively, and then also explaining why certain 
decisions were made. Just quickly, the marsh issue, right? 
There is reasonable disagreement--these are things I never knew 
before--about why you would let oil sit in marshes and just 
evaporate, because if you put a lot of people in there to clean 
it up, you are going to kill the marshes. I did not know that, 
we need to explain it better. I did not know that before and we 
need to explain it better. That is a choice that we have made 
through the unified command.
    Mr. Carney. Oil does not kill the marshes?
    Ms. Kayyem. Pardon? It does. These are the choices. None of 
these are ideal choices. I mean we start every day knowing that 
we are dealing with the worst environmental and oil spill. So 
any time there is slightly good news, that is a better day, and 
hopefully we are getting closer to some better days.
    Mr. Carney. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    Admiral, as I noted in my opening statement, NOAA has 
predicted this will be an active to extremely active as far as 
the hurricane season is concerned. High winds and rough seas 
from Hurricane Alex delayed response efforts. In addition to 
the delay in the response efforts, what other impacts on the 
response and clean-up do you anticipate if another hurricane 
enters the Gulf and what impact might hurricanes have on the 
trajectory of the oil and to what extent does the Unified 
Command work with FEMA to define roles and responsibilities for 
dealing with the potential of more oil coming ashore as a 
result of a hurricane?
    Adm. Neffenger. With respect to the planning that we are 
concerned about. As you know, there are mature structures in 
place, mature plans in place for hurricanes along the Gulf 
coast. So we have a lot of experience, just like the State. 
Working together with them to plan for the normal types of 
evacuations that you might expect to see. In our case, it is 
evacuating people from offshore and/or conducting the various 
rescue operations that generally come with weather systems that 
move offshore.
    The spill, of course, added some significant complexity to 
that. We have a lot of critical resources now that we have put 
to bear on this spill, whether it be skimming equipment, 
specialized vessels, boom and the like. So without speaking 
about the interruption of the actual attempt to clean, you have 
got to think about how you protect that equipment by retrieving 
it, putting it into safe harbors and/or safekeeping and then 
immediately putting it back on scene after the hurricane 
passes.
    So in real terms, you are probably looking at about a 2-
week interruption by the time you get that equipment out, and 
we have been working with logisticians and the DOD and others 
to think about how you would actually take 6,000-plus vessels 
out of the region, protect them, over 3.5 million feet of boom 
out of the region, protect it, and get it re-established, re-
deployed. So that is a significant challenge. I do not say that 
lightly because I think that it is likely that it would be 
difficult to save all the boom, for example. In fact, most of 
it you would have to consider lost, but it will do its own 
damage.
    Storm systems typically push in from the south, as you 
know, so you are going to get strong southerly winds. Alex is a 
good example of some of the challenges that we would face. It 
raised the storm tides by about a foot and a half and we 
suddenly saw tar balls coming into Lake Pontchatrain. That is 
because of the surge action from a storm that was in the 
southwest of the Gulf. That flushed back out fortunately and we 
saw many of those tar balls come back out of Lake Pontchatrain. 
But you would see some type of impact like that.
    With respect to FEMA, we have been working very closely 
with FEMA over the past month and a half to define 
responsibilities, respective responsibilities, under this spill 
response. The definitions are already there for a normal 
hurricane but we had to determine what happens with this spill 
response. The basics of what happens is that the Federal on-
scene coordinator remains the Federal on-scene coordinator for 
clean-up of any oil impact from this spill. FEMA has 
responsibility for the Stafford Act declaration that might 
follow and the normal assistance and support to the State and 
localities that would result from that. So we have drawn a very 
clear line and if you are interested, there is actually a very 
detailed hurricane plan for this response, which we can 
provide.
    Mr. Bilirakis. We would like that.
    Adm. Neffenger. Okay.
    Mr. Bilirakis. Madam Secretary, would you like to respond 
as well?
    Ms. Kayyem. Just to make absolutely clear to you that for 
purposes of the individuals who would be impacted by a 
hurricane, what they know, which is the Stafford Act regime, 
will apply. So there is no--there is this bright line because 
what we heard from the Secretary and the President was we do 
not want to mix anything up. So just to be clear that that 
regime of remedy would still absolutely apply regardless if the 
spill had stopped, was on-going or whatever else.
    Mr. Bilirakis. Thank you.
    Admiral, do you have sufficient resources to carry out your 
additional missions? Can you answer that question? Because I 
know this is a big responsibility, and how can we help as 
Members of Congress?
    Adm. Neffenger. Well, I think as I said to somebody once, 
you know, there is no operational commander who will ever say 
no to additional resources. But as I look at it, the real 
challenge for any agency going forward would be surging to this 
extent for an extended period of time. We have a significant 
number of our personnel assigned to this response, a 
significant number of our vessels, quite a few aircraft, and we 
have to do that while balancing the needs around the rest of 
the country. We are fortunate in that we have no other major 
incidents occurring in this country right now. But if we were 
to have one, it would--we would be stretched thin I believe.
    So I think the question going forward is what is the--how 
much surge capacity do you need a single agency to have and if 
you cannot afford the surge capacity you think it should have, 
how best to integrate all the other arms of Government to be 
part of this, because honestly this event, there is no single 
agency that could manage an event like this by itself, you 
really do need all those other departmental agencies to be part 
of it as well. So I think that moving forward, the planning has 
to take into account how you integrate, effectively integrate, 
all those different arms of Government to take their various 
roles. But I think that it will remain a challenge for us 
moving forward if this were to extend for another extended 
period of time.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman, 
appreciate it.
    Mr. Carney. Mr. Green.
    Mr. Green. Yes, thank you, Mr. Chairman.
    One question, admiral. The BP worst-case scenario plan, 
that plan is something that you were privy to: True?
    Adm. Neffenger. For this particular well?
    Mr. Green. Yes.
    Adm. Neffenger. No, sir, there is no requirement for the 
Coast Guard to have reviewed the plan that was submitted to the 
Minerals Management Service. We required a plan for the vessel, 
for the mobile offshore drilling unit, because it is classified 
as a vessel. We required a response plan for that----
    Mr. Green. Have you had occasion to review the plan at all?
    Adm. Neffenger. I have reviewed the plan since this event; 
yes, sir.
    Mr. Green. All right, given that you have reviewed the 
plan, whether you were required to or not, what is your 
assessment of that worst-case scenario plan?
    Adm. Neffenger. Well, I would say that it did not envision 
this type of scenario. Their plan, as most plans do, envisioned 
a bounded event, an event that had a beginning, middle, and 
end. So it did not take into account the potential for a well 
that was uncontrolled for this period of time.
    Mr. Green. The plan has been criticized, as you know, in 
the various media outlets. Some of the criticisms have gone to 
animals that were to be preserved that no longer exist; persons 
that were to be contacted that are no longer with us. What 
other deficiencies did you find in the plan? I want you to be a 
little bit specific if you can, please?
    Adm. Neffenger. Well, I can give you a more complete answer 
for the record, but I would say in general terms, if--and going 
forward, I think that we need to look at closing that gap, so 
that--it is clear to me that we need to have--if the Coast 
Guard is responsible for overseeing and ensuring the effective 
response to oil spills in the maritime environment, then I 
would like to know what the plans are associated with those, 
all the plans associated with the potential for oil to spill in 
the maritime environment. I think a detailed review of that 
plan is in order, as are all other plans associated with the 
potential for oils to spill, not just from vessels but from any 
entity on the outer continental shelf, because I think that 
that would be helpful in terms of our response.
    I will say though that regardless, we prepare--I always 
assume it's going to be the worst possible thing that is going 
to happen. Because as I said before, you can always turn things 
around and send them home. But with respect to specific 
deficiencies, I think that what I would like to do is let some 
of the investigations really play out and see what they 
recommend coming out of this. I know that there are a number of 
investigative arms that are taking a good hard look at that, 
and I am interested in seeing what their recommendations are 
for how to improve those plans in the future.
    Mr. Green. I will yield back the balance of my time, Mr. 
Chairman.
    Mr. Carney. Okay, Mr. Cao is here, so he gets to ask a 
question.
    Mr. Cao. I just have one question to the Secretary. Post-
Katrina, we saw a lack of communications between Federal 
agencies. Now in regards to the oil spill, we again see a lack 
of communications between the different Federal agencies with, 
for example, just looking at the construction of the berms, the 
Army Corps of Engineers would say build and then someone else 
would come and say well, let us stop, move the pipe someplace 
else. It generated all kinds of confusion for the State as well 
as for the local governments.
    What do you have planned to promote better inter-agency 
communications in the event of a future natural disaster or a 
future oil spill?
    Ms. Kayyem. Well, let me talk generally and then to that 
specific issue. So twice a day, both the cabinet Secretaries 
and then the White House hosts an inter-agency call as well, 
just to get the Federal family in place because of that concern 
that we wanted to have everyone on the same page. There are a 
number of important equities involved with this response. We 
take the environmental concern seriously, we take the response 
concern seriously, everyone has a seat at the table. Even 
within the Federal family, we may not always agree, but 
everyone has a place at the table for the ultimate decision-
maker, which is of course the President, but the National 
incident command structure, which oversees this.
    So in terms of communication, that is how we are trying to 
get a unified--that is how we sort-of demand a unified voice by 
the Federal Government. Then as I described earlier, the sort 
of outreach to the States and localities about what it is that 
we are doing and why we are doing it, and we have lessons 
learned in terms of how we are communicating. So, for example, 
you know, on almost every sort of major initiative 
announcement, say the Ken Feinberg claims announcement, we were 
very, very clear about what that would mean and what it did not 
mean and then we are sort of a unified Federal family.
    On the issue about the berm, and obviously a very 
controversial, very, very public--you know, we have an Army 
Corps of Engineers that is running quickly on its emergency 
permits, it has issued all but one in less than 17 days. So we 
are focusing on the big one, but we are focusing on the 
minority in terms of what the Army Corps of Engineers is doing 
every day. If someone heard the Army Corps of Engineers say 
this is advancing, apologies for that, but actually the Army 
Corps of Engineers always knew it was not the ultimate decider. 
So even if it had approved something, which it had only 
approved a piece of it, ultimately the decision is made by the 
National incident commander. The Army Corps of Engineers is 
just looking at the feasibility of doing this; the National 
incident commander is looking at is this actually something 
that is going to be--a larger question which is, is this part 
of the response or feasible response plan.
    Reasonable people disagree about that, but that is why it 
may appear the focus of where we are, but we have heard you and 
others concerned about was that red tape. For us, that was 
actually the necessary sort of different equities that had sort 
of a strong--different agencies having a strong equity in the 
ultimate decision.
    Mr. Cao. What I have seen at the ground level obviously is 
the inability of the Federal Government to make quick 
decisions. In situations such as an oil spill, we do not have a 
period of weeks or months to do one study and another study and 
another study. Quick decisions have to be made and again, there 
seems to be the inability of the Federal Government to do that. 
What ways can we streamline----
    Ms. Kayyem. We had the similar concern and so over the 
course of two and a half or however long we have been doing 
this, the summer of 2010, part of what we have been doing is to 
ensure that the Coast Guard and all the agencies are flat-
lining their decision-making authority. It does not mean--the 
deputy incident command structure that is established, it is 
the liaison structure that we have in place with these 80 folks 
who are making sort of basic decisions. So flat-lining it so 
the decisions are made quickly about the deployment of assets, 
when things are coming in, making sure that every Federal 
partner knows the seriousness of this so, once again, people 
believe the Corps of Engineers is studying, studying, studying, 
when you actually look at the numbers, 79 have been issued out 
of 101 permits with 12 of those withdrawn because they were 
never going to satisfy the Corps. So we have only done two 
denials and we issued all but one of them with in 17 days. That 
is not ideal, you want decisions made in a day, but that is 
pretty fast from the perspective of the kinds of projects that 
we want forward. The movement of boom is always related to the 
weather, we are making those decisions every single morning.
    So we are concerned about that, we have heard it, we are 
trying to flat-line the Federal family and work with the States 
about what are they doing and what assets are they utilizing 
that can support us. So as you know, 17,000 National Guard had 
been authorized by Secretary Napolitano and Secretary Gates in 
that first week to be used. Only a small fraction are being 
utilized by the States. What can the States bring to the table 
as well on the Federal bill, and ultimately the BP bill 
actually, to assist in getting to yes, very, very quickly. So 
we look forward to working with the States in sort of the 
expansive use of their National Guard as well.
    Mr. Cao. Thank you, I yield back.
    Mr. Carney. Ms. Jackson Lee.
    Ms. Jackson Lee. Questions always start mounting when you 
hear other Members raise concerns.
    Let me pose to you, admiral, I represent a large segment of 
the Gulf region that has individuals who live off the Gulf, 
whether it is fishermen and shrimpers, and when I say 
represent, they are in the region in Texas and we have worked 
with them through different hurricanes as a Member of the 
Homeland Security Committee. But also thousands of innocent 
workers who are in the oil and gas industry, who live off those 
types of opportunities, if you will, and many around the Nation 
do not understand that. I think one of the witnesses said they 
were sitting next to shrimpers and people in the industry and 
both saying the same thing about the need to preserve their way 
of life, their opportunity for an income.
    With that in mind, you have been very careful not to step 
on jurisdictional toes and I respect that, but I want from your 
experience just as you have seen the building blocks come 
together, would you think it would be important that we ramp up 
and make more stringent, for example, the kind of recovery 
redundancy plans, the kinds of plans that the industry has 
previously had to file on something as catastrophic as this oil 
spill is?
    Adm. Neffenger. I think that is a major lesson learned 
already, that we need to revisit the types of plans that we 
require and what those plans contain. I think that is something 
that we are already looking at inside the Coast Guard.
    Ms. Jackson Lee. One of the ideas that I have and let me 
say it and not necessarily ask you to comment unless you feel 
positively inspired. But I like you being gracious about the 
many agencies and I think the collaboration has been wonderful, 
but after 9/11, America woke up and said we need a general, we 
need a chief, we need someone to protect the homeland. It is 
the Department of Homeland Security, we cannot get away from 
it. Frankly, as I looked at a legislative fix, I think it is 
enormously important to vest that authority, even more so, in 
the Department of Homeland Security, which then raises the ante 
for the component that you may have, for example, because I 
think the Coast Guard, who has been very effective on the high 
seas of going and boarding ships and arresting people if 
necessary for the ills of the sea, has the kind of authority 
that can make it clear that your recovery plan must be of a 
great level of excellence and that there be no tomfoolery at 
relates to this kind of business which can be very dangerous. 
It can be very positive, but it can be very dangerous.
    Do you have thoughts about the need to ensure a better 
enforcement so that we can be attuned to who is not following 
the law and who is?
    Adm. Neffenger. I think your points are spot on. With 
respect to the particular planning enforcement, it goes back to 
my earlier comment about what I have already seen to be a gap 
between the requirements of what was the Minerals Management 
Service for producing plans, and the requirement of the Coast 
Guard for producing vessel plans. Those two did not come 
together. In retrospect, those are two things that should come 
together. So I absolutely agree that at a minimum, we need to 
look at closing that gap, so that those agencies, such as the 
Coast Guard, that are responsible for responding to and 
overseeing cleanup of oil spills on the water, understand all 
the potential oil spills that might occur.
    Ms. Jackson Lee. Mr. Chairman, very quickly, I am going to 
suggest that we try to overcome those sticky jurisdictional 
issues and look at coming together, the vessel plans and the 
rig plans; but I know you have an answer. But let me just 
quickly throw this to you as my time goes.
    First of all, you can go back to the Secretary and indicate 
that Congresswoman Jackson Lee wants the Coast Guard to have 
arrest powers as they go on the drilling rigs if they are not 
going to adhere to the commands that are being made, if there 
is a dangerous situation.
    But I do want to ask you quickly about this claims system 
which, again, is ad hoc. We think the person who has had great 
history with 9/11, but I think there should be a better claims 
process, independent claims process, that comes under an 
umbrella of some agency when it is required, beyond FEMA 
because this is not a natural disaster, has not been declared. 
What about a claims system that would be based or have some 
connection to the Department of Homeland Security and are you 
all ensuring that this claims system is working? I do not think 
it will because there is a push-back by BP for shrimpers and 
oyster men, where are their receipts, where are the 
restaurants' receipts? It does not work that way.
    Ms. Kayyem. So, just very quickly, we do have confidence in 
the independent assessments and claims process that Ken 
Feinberg is sort of reviewing right now. He is going to be 
completely up and running within 2 weeks, he has spent a lot of 
time in the field. In the interim, the Secretary recognizing 
the same thing that--most people know Stafford, we have got to 
deliver on their needs. She set up with Tracy Waring, who is 
behind me, is the lead in integrated services team that is 
taking all the claims available to folks and all the money that 
might be accessible, explaining it to them, providing them 
information. So in terms of claims, just even today, 53,000 
total checks have been written, 160,000 claims filed. So that 
is about 50 percent right now.
    The biggest issue right now is ensuring that what is in 
place now and the Ken Feinberg regime which is going to be up 
and running within 2 weeks, that it is perfect for the 
individuals and the businesses. That is what we are committed 
to, so that is why we are going to continue with the integrated 
services teams.
    On the moratorium issue and the 100 million that was 
reserved, we have been pushing BP to determine what in fact is 
going to be covered by that 100 million. I believe today or 
tomorrow, the Department of Justice will be issuing a letter to 
BP regarding what are the plans in terms of those who may be 
further down, sort of involved with issues related to the 
economic impact of the spill and so----
    Mr. Carney. Madam Secretary, I am going to cut you off 
there. We are going long, we have a number of folks that need 
to get on a plane and we still have another panel to go.
    I would like to thank both you and the admiral for your 
testimony. As all good panels do, you stimulate more questions 
and boy, we are going to let you have it. Please respond 
promptly once we send them, but we need to start the third 
panel.
    Thank you very much.
    Mr. Dempsey, are you awake?
    Mr. Dempsey. I am, sir.
    Mr. Carney. Good for you, that is great.
    I think we are just going to jump right into it.
    Okay, our only witness on this panel is Mr. Ray Dempsey, 
Vice President of Strategy for BP America. Mr. Dempsey is 
currently deployed as part of the Deepwater Horizon response 
team, leading external affair activities across the State of 
Florida. For the response, Mr. Dempsey is based in the Florida 
peninsula command post in Miami.
    Prior to being deployed on the response, Mr. Dempsey has 
been Vice President of Strategy and Portfolio for BP's Chicago-
based Fuels Value Change Strategic Performance Unit, a Fortune 
100-size division of BP. Mr. Dempsey's responsibilities include 
crude oil and fuel products market analysis, development of 
long-term strategy and business plans, business development, 
portfolio management, and project implementation.
    Previous to this current role, Mr. Dempsey was the Vice 
President and Regional Director for BP's Latin America and 
Caribbean Region with responsibility for external affairs, 
crisis management, planning, and strategy.
    Over his 20-year career, he has held various engineering, 
environmental, strategy, and financial roles in BP's refining, 
retail, and corporate staff organizations. Mr. Dempsey holds a 
bachelor's degree in industrial engineering from Kansas State 
University in Manhattan, Kansas and a master's degree in 
business administration from Northwestern University's Kellogg 
Graduate School of Management in Evanston, Illinois.
    Mr. Dempsey is a member of the Board of Directors for the 
BP Foundation and is a member of the Deans' Advisory Council 
for the College of Engineering at his alma mater, Kansas State. 
Mr. Dempsey also is a member of the BP Advisory Board for the 
National Society of Black Engineers and is a Board liaison for 
the National Action Council for Minorities in Engineering, 
NACME.
    Without objection, the witness' full statement will be 
inserted into the record. I will now ask Mr. Dempsey to 
summarize his statement for 5 minutes, please.

   STATEMENT OF RAY DEMPSEY, VICE PRESIDENT OF STRATEGY, BP 
                            AMERICA

    Mr. Dempsey. Thank you, Chairman Carney, Ranking Member 
Bilirakis, Members of the subcommittee. Thank you for the 
invitation to appear today before this subcommittee to discuss 
information-sharing practices related to the oil spill response 
efforts.
    I have worked for BP for 20 years, as you noted. On May 6, 
2010, I became a senior BP official in the St. Petersburg 
Unified Command, which directs the spill response efforts for 
the west coast of Florida and works together with incident 
command centers throughout the Gulf region. As part of my 
responsibilities, I also oversaw the St. Petersburg Joint 
Information Center where BP worked with the Coast Guard and 
other Federal and State government representatives to share 
information on spill-related efforts.
    The St. Petersburg Incident Command Post is now a branch of 
the Miami-based Florida Peninsula Command Post which I joined 
in early June. While I am directly responsible for supporting 
BP's response efforts in Florida, I also work closely with my 
colleagues across the Gulf region and have spent time along the 
Gulf coast as we stand united in this unprecedented response 
effort.
    We are devastated by this horrendous accident. It has 
profoundly touched all of us and we are committed to doing the 
right thing for the people affected by this spill. The friends, 
family, and loved ones of those who lost their lives in this 
tragic accident remain in my thoughts and prayers. Even as we 
absorb the human dimensions of this tragedy, we are also 
committed to doing everything possible to minimize and mitigate 
the environmental and economic impacts of the spill on the Gulf 
coast.
    As you have heard in earlier testimony, the overall region-
wide spill response efforts are led by the Unified Area Command 
and retired Coast Guard Admiral Thad Allen is the National 
Incident Commander with ultimate responsibility for the overall 
response effort. Coast Guard Admiral James Watson is the 
Federal On-Scene Coordinator and the Unified Area Command 
currently based here in New Orleans includes personnel from BP, 
Transocean, the Coast Guard, multiple Federal agencies, and the 
affected States.
    To support the Unified Area Command, Incident Command Posts 
have been established in Mobile, Alabama; Houma, Louisiana; and 
Miami, Florida. The Incident Command Posts facilitate direct 
communication with State, city, parish, Tribal, and county 
officials and direct a significant portion of the near-shore 
and on-shore response efforts. BP personnel play key roles in 
supporting the incident command posts along with personnel from 
the Coast Guard, Department of Homeland Security and other 
Federal and State personnel. In addition, the BP Command Center 
based in Houston, which focuses on the source control, is 
supportive of the Unified Area Command.
    Importantly, all sub-sea, surface, and shoreline response 
efforts are coordinated through and must ultimately be approved 
by the Unified Area Command. The response currently involves 
approximately 46,000 personnel, over 6,000 vessels and 118 
aircraft. As a result of the efforts, approximately 740,000 
barrels of oil have been collected or flared by available 
containment systems and approximately 3 million feet of boom 
have been deployed.
    BP has committed tremendous global resources to the 
response effort. Our efforts are focused on two goals--stopping 
the flow of oil and minimizing the environmental and economic 
impacts from the spill. Towards this end, BP is deploying 
resources to fight the spill at the sub-sea, the surface, and 
the shoreline. These activities are carried out under the 
direction of the Unified Area Command.
    A key responsibility of the Unified Area Command is the 
timely, accurate information sharing. This is critical to the 
success of our operations and our obligations to governments, 
businesses, and individuals in the Gulf who have been affected 
by the spill. Our information-sharing expectations and 
objectives can be summed up rather simply--to ensure the 
timely, accurate updates to the public, to ensure close 
alignment and communications within the Unified Area Command to 
facilitate effective operations, and to effectively liaison 
with local officials, the private sector, and nongovernmental 
groups to address concerns and assure that recommendations are 
fully considered and implemented as appropriate.
    To successfully meet our goals, we have developed a number 
of formal and informal channels of communication.
    First, the Unified Area Command holds regularly scheduled 
meetings to facilitate timely information sharing among the 
Unified Area Command members.
    Second, in addition to the formal briefings, the Incident 
Command Posts communicate with the Unified Area Command 
multiple times throughout the day. Decisions and 
recommendations made in the Incident Command Post are 
communicated up through ordinary command and through the 
Government and BP channels.
    Third, BP, within the context of the Unified Command and as 
the responsible party, regularly responds to information 
requests from key Federal and State entities such as OSHA, the 
Department of the Interior, the Department of Energy. Moreover, 
Federal Government personnel, including the Coast Guard, have 
been a continuous presence at the BP Houston command center.
    Finally, the Unified Area Command's external communications 
are largely handled by the Department of Homeland Security's 
Emergency Support Function Number 15, which includes the Joint 
Information Center, a Government affairs team and a community 
affairs team.
    We believe the Unified Area Command structure in place has 
been largely effective. With any undertaking of this size and 
complexity, there is always room for improvement. We are 
committed to making these improvements every day.
    BP is under no illusions about the seriousness of the 
situation that we face. The world is watching us. President 
Obama and members of his cabinet have visited the Gulf region 
and made clear their expectations of BP and our industry. So 
have Governors and local officials, Members of Congress, and 
the American people. We know that we will be judged by our 
response to this crisis and I can assure you that my colleagues 
and I at BP are fully committed to ensuring that we do the 
right thing. We are mounting the largest spill response effort 
in history. The complexities, as you have heard described, are 
unprecedented. We and the entire industry will learn from this 
terrible event, and will emerge from it stronger, smarter, and 
safer.
    I am very happy to answer your questions.
    [The statement of Mr. Dempsey follows:]

                   Prepared Statement of Ray Dempsey
                           July 12, 2010 \1\
---------------------------------------------------------------------------
    \1\ The data described throughout this testimony is accurate to the 
best of my knowledge as of Friday, July 9, 2010, when this testimony 
was prepared. The information that we have continues to develop as our 
response to the incident continues.
---------------------------------------------------------------------------
    Chairman Carney, Ranking Member Bilirakis, Members of the 
subcommittee, I am Ray Dempsey, Vice President for Strategy & Portfolio 
for BP America. I am pleased to appear today before this subcommittee 
to discuss information sharing practices related to the oil spill 
response efforts.
    I have worked for BP for 20 years. On May 6, 2010, I joined the St. 
Petersburg Unified Command, which directs spill response efforts for 
the west coast of Florida and works together with incident command 
centers throughout the Gulf region, as a senior BP official. As part of 
my responsibilities, I also oversaw the St. Petersburg Joint 
Information Center, where BP worked with the Coast Guard and other 
Federal and State government representatives to share information on 
spill-related efforts. The St. Petersburg Incident Command Post is now 
a branch of the Miami-based Florida Peninsula Command Post, which I 
joined in early June. While I am directly responsible for supporting 
BP's response efforts in Florida, I also work closely with my 
colleagues across the Gulf region and have spent time along the Gulf 
Coast as we stand united in this unprecedented response effort.
    There is an enormous team working on the response efforts, with 
over 47,000 personnel deployed throughout the Gulf region. In my role, 
I focus on information sharing within the Unified Area Command 
generally, and the Florida Peninsula Command Post more specifically.
    We are devastated by this horrendous accident. This incident has 
profoundly touched all of us, and we are all committed to doing the 
right thing for the people affected by this spill. Even as we absorb 
the human dimensions of this tragedy, we are committed to doing 
everything possible to minimize the environmental and economic impacts 
of the oil spill on the Gulf Coast. I volunteered for my current 
assignment because I want to help the company respond to this spill and 
to address the needs of the people in the Gulf Coast region.

                   THE UNIFIED AREA COMMAND STRUCTURE

    Overall region-wide spill response efforts are led by the Unified 
Area Command (``UAC''). Retired Coast Guard Admiral Thad Allen is the 
National Incident Commander with ultimate responsibility for the 
overall response effort, and Coast Guard Admiral James Watson is the 
Federal On-Scene Coordinator. The UAC, currently based in New Orleans, 
Louisiana, includes personnel from BP and Transocean, the Coast Guard, 
the Bureau of Ocean Energy Management, Regulation and Enforcement 
(``BOE''), and other Federal entities such as the Departments of 
Homeland Security (``DHS''), Energy, and Defense, the National Oceanic 
and Atmospheric Administration (``NOAA''), the U.S. Fish & Wildlife 
Service (``USFWS''), the National Marine Fisheries Service (``NMFS''), 
the Environmental Protection Agency (``EPA''), the Occupational Safety 
and Health Administration (``OSHA''), and the affected States.
    To support the UAC, Incident Command Posts (``ICPs'') have been 
established in Mobile, Alabama; Houma, Louisiana; and Miami, Florida. 
The ICPs facilitate direct communication with State, city, parish, 
Tribal, and county officials and direct a significant portion of the 
near-shore and on-shore response efforts. BP personnel play key roles 
in supporting the ICPs, along with personnel from the Coast Guard and 
DHS and other Federal and State personnel. Twenty branch locations 
(nine serve under the Houma ICP, nine under the Mobile ICP, and two 
under the Miami ICP) serve as Forward Operating Bases to help protect 
the shoreline and provide locations for efficient storage and 
deployment of the equipment, materials, and personnel needed for this 
response. Local government personnel engage with the BP and U.S. Coast 
Guard personnel at these branches. In addition, the BP Command Center 
based in Houston, which focuses on source control, also supports the 
UAC.
    Importantly, all subsea, surface, and shoreline response efforts 
are coordinated through, and must ultimately be approved by, the UAC. 
The response currently involves approximately 47,000 personnel, 6,670 
vessels and 118 aircraft. As a result of these efforts, approximately 
740,000 barrels of oil have been collected or flared by available 
containment systems and approximately 3 million feet of boom has been 
deployed. These actions have all been carried out under the direction 
of the UAC.

                          BP'S ROLE IN THE UAC

    BP has committed tremendous global resources to the response 
effort. Our efforts are focused on two goals: Stopping the flow of oil 
and minimizing the environmental and economic impacts from the spill. 
Towards this end, BP is deploying resources to fight the spill at the 
subsea, surface, and shoreline.
    For example, immediately following the explosion, in coordination 
with the Unified Command, BP activated its pre-approved spill response 
plan and began mobilizing oil spill response resources including 
skimmers, storage barges, tugs, aircraft, dispersant, and open-water 
and near shore boom. Today, BP carries out these activities through the 
ICPs. Currently, the Houma ICP directs offshore and near-shore 
skimming, dispersants, and controlled burn efforts. The nine branches 
serving under the Houma ICP direct the tactical response for near-shore 
skimming, marsh, and beach clean-up activities. Similarly, the Mobile 
ICP and its branch locations direct near shore, marsh, and beach 
activities for their area of responsibility. The UAC provides high-
level strategic oversight of all ICP activities.
    In addition, all source control procedures and activities 
undertaken by BP's Houston command center are approved through the UAC 
prior to execution.

          INFORMATION SHARING WITHIN THE UNIFIED AREA COMMAND

    As a senior BP official in the Florida Unified Command, I have 
spent substantial time working with government officials at all levels 
to address concerns, to discuss requests and recommendations, and 
ultimately to take the appropriate actions to meet our responsibilities 
in the Gulf region. This is a key responsibility of the UAC--timely, 
accurate information sharing is both critical to the success of our 
operations and our obligations to the governments, businesses, and 
individuals in the Gulf who have been affected by this spill. Our 
information sharing expectations and objectives can be summarized 
simply: Ensure timely, accurate updates to the public; ensure close 
alignment of communications within the UAC to facilitate effective 
operations; and effectively liaison with local officials, the private 
sector and non-governmental groups to address concerns and ensure that 
recommendations are fully considered and implemented as appropriate. To 
successfully meet our goals, we have developed a number of formal and 
informal channels of communication.
    First, the UAC holds regularly scheduled meetings to facilitate 
timely information sharing among UAC members. Under the Incident 
Command System (``ICS''), the UAC must hold regular situation updates, 
briefings, and meetings. For example, daily situation briefings are 
held twice each day. They are attended by section heads, including BP 
and the Coast Guard (although any member of the UAC is able to attend), 
and led by the planning section chief, as prescribed by ICS.
    The UAC also holds daily area command briefings, which include 
personnel from BP, the Coast Guard, and Government agencies, including 
Federal and State officials. Participants receive briefings from the 
ICPs, discuss requests, and receive updates on weather, oil movement, 
and status of operations.
    Second, in addition to the formal briefings, the ICPs communicate 
with the UAC multiple times throughout the day. The ICPs were 
established to ensure more direct access to and communication with 
local officials, businesses, and residents. Decisions and 
recommendations made in the ICPs are communicated up through ordinary 
command and through Government and BP channels. Moreover, IPCs 
continually seek input from localities, consider seriously any concerns 
and issues raised, and do our best to address them accordingly. As a 
result, our operations and information-sharing practices are constantly 
evolving. As a result, our operations and information-sharing practices 
are constantly evolving. For example, we just recently enhanced our 
Florida unified command structure to include additional branch 
locations in the Panhandle region. This is intended to bring an 
enhanced level of command and control that includes representatives of 
local government. Local government best understands the needs of their 
communities, and we are striving better to integrate them into response 
efforts.
    Third, BP, both within the context of the UAC and as a responsible 
party, communicates directly with Federal and State government 
officials. BP regularly responds to information requests from key 
Federal and State entities, such as OSHA, the Department of the 
Interior, and the Department of Energy. Moreover, Federal Government 
personnel, including the Coast Guard, have been a continuous presence 
at the BP Houston command center. Through these activities, BP seeks to 
ensure up-to-the-minute information-sharing with key Federal and State 
personnel.
    Finally, the UAC's external communications are largely handled by 
DHS's Emergency Support Function (``ESF'') No. 15. ESF No. 15 has 
external affairs staff (led by the Coast Guard), including the Joint 
Information Center, which is staffed by representatives from BP, the 
Coast Guard, the Department of Defense, and Federal agencies (e.g., 
EPA, NOAA, USFWS), and which is responsible for responding to media 
inquiries. There is also a Governmental affairs team composed of 
liaison officers who provide information to and coordinate visits from 
elected officials and other interested parties. The community affairs 
team, composed of community liaisons, coordinates with BP and DHS 
community representatives working at the ICPs and branches. Community 
liaisons are responsible for working with affected members of the 
public and local officials in the affected areas and elevating issues 
to the UAC when necessary.

                               CONCLUSION

    We believe the UAC structure in place has been largely effective. 
With any undertaking of this size and complexity, there is always room 
for improvement. We are committed to making these improvements every 
day.
    BP is under no illusions about the seriousness of the situation we 
face. The world is watching us. President Obama and members of his 
Cabinet have visited the Gulf region and made clear their expectations 
of BP and our industry. So have Governors and local officials, Members 
of Congress, and the American people.
    We know that we will be judged by our response to this crisis. I 
can assure you that my colleagues at BP and I are fully committed to 
ensuring that we do the right thing. We are mounting the largest spill 
response effort in history. The complexities are unprecedented. We and 
the entire industry will learn from this terrible event, and emerge 
from it stronger, smarter, and safer.

    Mr. Carney. Thank you for your testimony. We are going to 
go out of order in this case to respect Mr. Green's need for a 
flight. So I recognize Mr. Green for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Chairman, I am going to make a distinction between BP 
high-level management and BP rank-and-file with reference to my 
statements. The high-level management is where the policy 
emanates and I am going to address my questions to high-level 
management.
    People are unhappy with BP. I am one of those persons. BP 
has become synonymous with broken promises. BP has a record 
that in my opinion indicates someone in high management is not 
doing his or her job, and possibly many people.
    Texas City, 15 people killed, a report indicating that 
there was willful neglect. Willful neglect in the sense that 
there was knowledge that a problem existed and the problem was 
not corrected at Texas City. The North Slope of Alaska where 
penalties were paid. Now we have 11 additional person dying 
right here with the Deepwater Horizon.
    BP is not only going to be judged by how well BP responded 
to this incident, BP ought to be judged also by how well BP 
performed, allowing this incident to occur. An investigation 
ought to take place, people ought to be investigated. Oil 
companies themselves do not commit crimes, people do when they 
fail to take the proper measures to protect human life. We 
cannot allow another BP tragedy to occur. The public is not 
going to forgive us.
    It has been said that this was a wake-up call. This indeed 
was more than a wake-up call. The wake-up call was in Texas 
City when we lost 15 lives. This is a second alarm and I am not 
sure that we will have an opportunity to convince the public 
that we have done our jobs if a third alarm should occur, if 
something else should occur. I think that we have got to do 
what we must do, and that is have an external investigation of 
BP. I separate the rank-and-file workers from the upper-level 
management where these policies and decisions are being made.
    Someone has to understand that the American people are not 
going to allow this kind of negligence to continue. I believe 
it to be negligence based upon the reports that I have seen 
thus far. If other reports to the contrary are presented, I 
will review them. But I am not happy with BP. I think that it 
is time for BP to understand that you cannot come in after the 
fact and throw your money around and then in some way think 
that you have now compensated for the lives that have been 
lost.
    I think that what is happening to this economy as a result 
of BP is also something that must be investigated such that not 
only will those persons who are closely related to these 
damages that they are suffering, but also those that are 
remotely related will receive some degree of compensation as 
well.
    This incident has to be the last straw for BP. We cannot 
continue to allow this company to continue to behave the way it 
has through the years--15 lives, 11 lives, and God knows what 
is ahead of us. So I am just letting you know that I am going 
to push for a thorough investigation of this process. I am 
interested in the response, but I also want to know what 
happened to allow this to occur again.
    No more deaths. BP has got to keep some of these promises 
that it continues to make.
    Finally this, I appreciate you being here today. Your 
credentials seem to be impeccable. You are at one level and I 
am confident that you are capable, competent, qualified. But at 
some point, I am hopeful that we will get the President of BP 
or someone in that policy-making room with the President to 
come before a committee and give us some responses. I 
understand how you arrived here today, no disrespect to you, 
sir, but I just want you to know that I am speaking for a lot 
of people who cannot speak for themselves who are fed up with 
BP and the way it has responded to other crises that have 
already occurred, such that this one has now risen its ugly 
head. BP has got to do better if it is going to continue to do 
business in this country.
    Thank you, Mr. Chairman. I have no time to yield back and I 
appreciate your courtesy.
    Mr. Carney. Thank you, Mr. Green.
    I will recognize myself for 5 minutes now.
    Mr. Dempsey, did BP participate in the SONS 2002 exercise 
in New Orleans?
    Mr. Dempsey. Mr. Chairman, I understand that BP has been a 
participant in a number of exercises around the Gulf for a 
number of years. In an earlier role of my own, I was 
accountable for the crisis management team through the United 
States. My understanding is that yes, indeed, we were part of 
the SONS exercise in 2002.
    Mr. Carney. Okay. The lessons learned from your 
participation or BP's participation, were they applied in this 
incident?
    Mr. Dempsey. Mr. Chairman, I believe that in every case of 
an exercise of the type that was conducted, there is a very 
thorough debrief, there is a very thorough reflection on what 
were the lessons learned and what changes can be implemented 
within our industry and within the Governmental agencies with 
whom we work. I believe that those lessons learned from that 
exercise have indeed been applied in BP and throughout our 
industry.
    Mr. Carney. What were those lessons learned in 2002?
    Mr. Dempsey. Mr. Chairman, I think one of the most 
important observations that relates to this response and 
relates to our previous exercises is very much about a subject 
you have heard described throughout this hearing by previous 
panelists. A critical priority is to ensure the early and 
continuous involvement of local officials, officials who have 
deep knowledge and understanding of their geography, of the 
waters in their areas and of the concerns and priorities within 
their area of responsibility.
    Mr. Carney. Okay, I want to ask you a question. The number 
of gallons or barrels per day leaking started at zero and now 
it is somewhere between 60- and 100,000. How was that 
determined, how do you arrive at that number?
    Mr. Dempsey. Mr. Chairman, in the early weeks of this 
response, the flow rates were developed and supported by the 
Unified Area Command and that was based on data provided by BP. 
In more recent weeks----
    Mr. Carney. Stop right there. So BP provides Unified Area 
Command with a number of the flow, right?
    Mr. Dempsey. No, sir, Mr. Chairman. The data provided by BP 
relates to the imagery which many of us have seen, it relates 
to the amount of oil that has been contained or burned through 
the series of exercises going on on the surface. Based on that 
data, estimates were made in a cooperative way by Unified Area 
Command and now, sir, by the Flow Rate Technical Group, which 
is an independent body appointed by the National Incident 
Commander. We continue to provide data to the Flow Rate 
Technical Group who have developed the most recent estimates 
for the amount of flow coming from the well.
    Mr. Carney. So it is true that BP was part of a team and 
not providing the initial assessments of the flow--of the 
output?
    Mr. Dempsey. Yes, sir, Mr. Chairman, that has indeed been 
the case.
    Mr. Carney. Okay. Now does BP have an interest in reporting 
or urging for lower flow rates as opposed to higher ones? Is 
there some liability that BP may face if the flow rates are 
actually higher than lower?
    Mr. Dempsey. Mr. Chairman, I do not know of any specific 
distinction that would be made in terms of liability as a 
function of the flow rate. I can assure you that the response 
that has been mounted here has not been a function of an 
estimate of the flow rate, it has been based on the reality of 
the oil that has been identified on the surface and the threat 
that we have perceived as it relates to shoreline response and 
response efforts. The resources that have been deployed are a 
function of BP bringing to bear the entire resources of our 
company from around the world, and they have been put into 
place to address whatever oil and whatever threat is identified 
through the decision-making of the Unified Area Command.
    Mr. Carney. So what you are saying is BP does not face a 
larger or smaller fiduciary responsibility based on how much 
oil has flowed out of the well?
    Mr. Dempsey. Mr. Chairman, I am not aware of any 
distinction in the liability that would be a function of this 
response that relates to the flow rate.
    Mr. Carney. Okay. If you learn differently, or please 
investigate that and send your answer back to the subcommittee.
    Mr. Dempsey. I will.
    Mr. Carney. I now recognize Mr. Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    What is your response plan for the west coast of Florida, 
God forbid the oil comes near us?
    Mr. Dempsey. Congressman Bilirakis, I have personally been 
involved in the planning and the preparation for response on 
the west coast of Florida. As I noted in my testimony, I was 
assigned--I volunteered, frankly--to go to St. Petersburg and 
arrived there on the 6th of May, where I became a senior BP 
official. One of the earliest priorities that we identified was 
to invite in representatives from each of the counties in the 
13-county area in the St. Petersburg sector, which starts in 
Taylor County in the north down to Collier County in the south. 
Our aim was to work with each of those counties on the Area 
Contingency Plans to make sure that there was a real sense of 
clarity about the sensitive areas within their counties, about 
the protective strategies that were in place according to those 
Area Contingency Plans, and that any adjustments that were 
needed in respect of this particular response were made and 
made in full cooperation with the counties and local officials.
    At this time, the planning and the preparation which 
includes the development of those Area Contingency Plans has 
been put into place and, as has been noted in earlier 
testimony, we are in the process now of engaging through the 
liaison team to go deeper into communities and make sure we are 
aware of the priorities, the concerns that are raised by 
communities and by local officials, and that our response plans 
continue to be responsive to those priorities.
    Mr. Bilirakis. Will you include the cities as well?
    Mr. Dempsey. Congressman Bilirakis, I have met personally 
with Mayor Hibbard on at least two occasions that come 
immediately to mind. Indeed, part of my priority over the last 
month has been to meet with local elected officials, community 
leaders, business leaders and citizens around the State, and 
particularly around the west coast. Just last week, I was in a 
couple of counties up in the eastern edge of the panhandle with 
Congressman Allen Boyd, where we held a series of community 
meetings with his constituents to make sure that we listened to 
their priorities, their concerns and that we helped to share 
information with them about the preparation that has already 
taken place and is continuing and the potential threat to their 
coastlines.
    Mr. Bilirakis. Thank you.
    So, you do not think that this miscalculation with the flow 
rate had any effect on the response; is that what you are 
saying?
    Mr. Dempsey. Congressman, my understanding of the way we 
have mounted this response from the very beginning, which began 
frankly on the day of the incident; and on the day after the 
incident, BP personnel were here in New Orleans, with Admiral 
Mary Landry, who at that time was identified as the Federal On-
Scene Coordinator. Admiral Landry put into place the Unified 
Area Command structure and from that point we have mounted a 
response that is focused on addressing the threat that comes 
from the well. Without specific regard to the estimate of the 
amount coming from the well, the resources that have been 
deployed including the activity at the spill site, the near-
shore response and the clean-up efforts have been a function of 
what is there. Therefore, my assertion to you, Congressman, 
would be that the estimates of the flow rate did not limit our 
ability to mount this response.
    Mr. Bilirakis. Okay, next question. I understand there has 
been a problem with the claims process in the State of Florida 
and that BP is working on that issue. Can you please give me 
maybe an update on that?
    Mr. Dempsey. Congressman, I would say to you that the 
claims process has been quite a learning experience in many 
ways. In 84 days now of this response, you may know that we 
received over 100,000 claims, we have paid out more than half 
of those or roughly half of those in an amount totaling roughly 
$165 million. We have made a commitment of a $20 billion fund 
to be administered over time, and as you may also be aware, we 
have appointed or we have had appointed an independent 
administrator, Mr. Kenneth Feinberg, who brings deep experience 
in this process from the work that he did post-9/11.
    In Florida, we have managed to pay out individual claims 
now in a time of about 4 to 5 days. We now are paying out 
business claims in a time which is roughly 6 to 8 days. Our 
priority in recent days has been to streamline and improve the 
process for the local government entity claims process and just 
in the last week we have completed payments to a number of 
counties in the panhandle that had expended resources in this 
response and monies have been transmitted to them in 
reimbursement for their costs that have been put into place for 
this response.
    I know that Administrator Feinberg and his team will build 
into their plans ways to further increase the efficiency, the 
pace and the assurance that the objective here is to get money 
into the hands of those who ought to have it just as quickly 
and efficiently as we can.
    Mr. Bilirakis. Okay. I have heard reports that BP----
    Mr. Carney. Mr. Bilirakis, we will do another round.
    Mr. Bilirakis. Okay, thank you very much.
    Mr. Carney. Ms. Jackson Lee, please.
    Ms. Jackson Lee. Thank you, Mr. Dempsey, for appearing here 
today.
    I know that BP has a command site in Houston, Texas in its 
corporate headquarters. My question to you is the willingness 
of BP to meet with me and my constituents as Texas prepares for 
the possibility of a hurricane and the intrusion of some of the 
oil spill in our region. Could you arrange that and ensure that 
we would have the opportunity to meet with locally elected 
officials, emergency preparedness individuals, to talk about 
being prepared in the State of Texas?
    Mr. Dempsey. Congresswoman, I would be very happy to go 
back with my colleagues in Houston and ensure that we can 
facilitate just such a meeting.
    Ms. Jackson Lee. Thank you. Does BP intend to file 
bankruptcy?
    Mr. Dempsey. Congresswoman, I have been asked this question 
before. A month ago in Washington, DC in a Senate hearing, I 
was asked a similar question by one of your colleagues.
    What I can tell you is that we are certainly committed to 
this response and we have brought to bear the full resources of 
our company to ensure that we stop the flow of the oil and we 
mitigate and minimize the environmental and economic impacts. 
We provide information to our shareholders and we provide 
information to Wall Street security analysts community and the 
City of London. They have made their own analyses of the 
potential liabilities, the potential costs, and they have drawn 
their own conclusions about whether or not BP will go out of 
business.
    I can tell you that within the organization, I have not 
been privy to any discussions that suggests that that is an 
intent that we would pursue.
    Ms. Jackson Lee. Well, let me just say this, and I thank 
you for that answer. I think BP owes the American people a 
forthright pronouncement that they will not file bankruptcy and 
they will not file to the detriment of those who are still 
suffering.
    The second part of my question is I have repeatedly asked 
BP to understand the uniqueness of small restaurants, the 
tourism business, oyster, fishermen, et cetera. My visit here, 
my first visit, was to oystermen, fishermen, and others and 
asked BP to provide them with a lump sum payment. To date, the 
restaurant is still on the brink of closing or already closed, 
the owner cannot pay her mortgage, and fishermen and oystermen 
have not gotten compensation based upon BP's, if you will, 
entangled process of calling for receipts.
    I do not think these people are trying to defraud BP and 
the question is can BP move this process along now that the 
independent claims person has it? I frankly do not believe it 
is going to move any quicker if we have the same standards that 
BP is using. What are you doing to help these people who do not 
have traditional financial records?
    Mr. Dempsey. Congresswoman, I can tell you that from the 
early days of the claims process, we----
    Ms. Jackson Lee. Mr. Dempsey, I do not want to interrupt 
you, but my time is very short too and I am leaving for the 
airport. Are you going to work with these individuals to 
provide them with funding? Can I get this back in writing? Why 
do I not just ask for an answer back in writing about the 
payment to these individuals. I will just move on.
    The other question is, quickly: What you are doing 
regarding health concerns and mental health concerns, which I 
think is also challenging? In addition, there have been many 
who have technology and I know that you cannot answer 
everyone's call but there are individuals such as an African-
American who has discovered a technology that is now presently 
on hold and I am trying to find the individual's name--Rodney 
Whitney--been on hold for 6 weeks and has not been able to get 
a response from BP on utilization of this technology.
    Do you have any insight on small contractors who are 
waiting to be helpful and seemingly cannot get a response, 
along with the mental health issue?
    Mr. Dempsey. Congresswoman, just as it relates to your 
earlier question, I am not familiar with the specifics of the 
case that you were describing there, but I am happy to follow 
up with you and I will follow up to pursue that.
    Ms. Jackson Lee. I appreciate that, thank you.
    Mr. Dempsey. We share your concerns around mental health 
impacts and I know that there is a conversation underway with 
States around the region to get clarity as to the best and the 
most effective way to support those concerns.
    As it relates to the third part of your question there, I 
am sorry, will you please----
    Ms. Jackson Lee. Mental and physical health concerns.
    Mr. Dempsey. Right and there was----
    Ms. Jackson Lee. Compensating for that.
    Mr. Dempsey. There was a third part to your question, 
Congresswoman and I----
    Ms. Jackson Lee. It was the small business.
    Mr. Dempsey. Small businesses.
    Ms. Jackson Lee. Yes.
    Mr. Dempsey. Yes, that is right; thank you for the 
reminder.
    Ms. Jackson Lee. The independent claims, whether or not you 
are able to move forward on paying people that do not have the 
traditional financial records that BP seems to be insisting on. 
Everybody is committing fraud, as we seemingly--they are 
interpreting that everyone is trying to, you know, take 
advantage of BP and these people are dying.
    Mr. Dempsey. Thank you, I will go back to that and then 
return to the question around the ideas.
    So from early in the process, we created an advance payment 
facility for fishermen and a boat captain could go into any of 
the 35 claims offices around the region and in many cases with 
very little documentation, presumably a payroll stub or some 
sort of a bank deposit receipt, could walk out of the claims 
office with a check for $5,000. A deck hand similarly could 
walk into a claims office with very little in the way of 
documentation, again, a check stub, a payroll receipt; and in 
many cases, frankly, Congresswoman, we would make a call to a 
boat captain to confirm their employment, and those deck hands 
could leave the claims office with a check for $2,500. The 
substantiation that would follow would give the opportunity for 
us to true-up their true compensation. So in the event that a 
boat captain earned more than that, they would be trued up in 
the following month.
    Ms. Jackson Lee. If I could just have you answer the other 
questions in writing. What you are repeating to me, there are 
those that are saying that they have not gotten checks in 
months and literally they are dying on the vine.
    Let me just conclude and thank the Chairman for this 
excellent hearing and say to you, Mr. Dempsey, that I too 
represent thousands who are innocent that are in the industry 
and I would only say that I believe your company and the entire 
industry owes, in a stand-up way, the American people an 
apology and an explanation of who the oil industry is. Not 
putting their head in the sand, and begin to talk about how 
they can do better and how they can work together with the 
American people to preserve what we have and to improve upon 
what needs to be improved. They owe us an apology and they are 
my constituents, because you are hurting not only the American 
people, but you are hurting all these innocent workers who are 
frightened for their jobs. That means those in the oil industry 
that I represent. Leadership owes a pronouncement to the 
American people that we will not go bankrupt. Your partners 
need to come out of hiding and they need to stand with you and 
own up to paying the American people, because everyone knows 
there are more than just BP on that rig. These individuals are 
hiding and you should not allow them to hide.
    So, Mr. Chairman, I hope as we try to construct a better 
management or command structure, that we also look at all the 
parties that were involved in this catastrophe, we call them 
out, let them stand before the American public and tell us how 
they will fix it.
    Mr. Dempsey, I appreciate your leadership and what you are 
trying to do. But you are trying to climb up the rough side of 
the mountain and you need your leadership to recognize that.
    I yield back, Mr. Chairman.
    Mr. Carney. Thank you, Ms. Jackson Lee; thank you for your 
questions.
    Mr. Dempsey, media reports after the explosion occurred 
indicated, ``There was no one in charge aboard the rig.'' Who 
was actually in charge or who should have been in charge? Was 
it BP, was it Transocean, who?
    Mr. Dempsey. Congressman--Mr. Chairman, I should say that I 
think this answer is also a bit responsive to the comments made 
by Congressman Green and the comments made just now by 
Congresswoman Jackson Lee. I think it is really important to 
note that, first of all, this is indeed an unprecedented event 
and it is something that is beyond the scope of our previous 
experiences. There is an investigation underway and as Mr. 
Green called for and as Ms. Jackson Lee also called for, I want 
to make sure that it is clear that there is an investigation 
underway, both by BP and by the Federal Government.
    I am certain that given the conclusion of those 
investigations, we will learn what went wrong here and I 
believe that we will put into place changes in the policies, 
the practices, and the procedures to ensure that this kind of 
incident cannot happen again.
    Mr. Carney. Thank you. From your experience watching the 
flow of information up and down the chain of command, where do 
you see the bottlenecks? Where do you see constrictions in flow 
and response?
    Mr. Dempsey. Mr. Chairman, I think that the unified command 
structure is actually quite purposeful in that it brings 
together expertise from different parties. The role that BP 
plays in the unified command structure is probably quite 
different from that that could be brought by the Coast Guard 
and by the other associated State and Federal agencies.
    I think that because there is a need for us to work 
cooperatively and collaboratively, there have been occasions 
where the time it takes to understand each others' points of 
view, to understand the most effective ways to protect the 
shoreline have taken more time than many of us might like. I am 
not sure that I could point, Mr. Chairman, at any particular 
constriction, but it is important to note that working in the 
unified command structure, there is indeed a decision-making 
process and we are working very carefully within that to ensure 
that we make the right choices to maximize our protection of 
the shoreline.
    Mr. Carney. Thank you very much. Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman.
    Getting back to the claims process, I know there is a 
claims process now going on with BP and the $20 billion trust 
fund, which Mr. Feinberg is in charge of, the independent trust 
fund. How is that going to jibe in, how is that going to work? 
Is he going to be responsible for all the claims once the 
guidelines are established? You know, my constituents need to 
know where to go to, where to turn to.
    Mr. Dempsey. I understand. So, Congressman Bilirakis, I 
believe that the independent claims administrator, Mr. 
Feinberg, will make very clear over the next couple of weeks 
the scope and the range of the work that he and his team will 
do. My expectation is that they will indeed take accountability 
for executing the claims process for individuals, for 
businesses, and for local Government entities.
    Mr. Bilirakis. Okay. With regard to the relief wells, there 
was a report I guess 3 or 4 days ago that the one well at least 
will be on-line by possibly July 20. I know that the target 
date is mid-August. Tell me something about that. Can you give 
me an estimation when it will be completed?
    Mr. Dempsey. Yes, sir. Congressman, I am as anxious as the 
rest of the world to know that we have successfully completed 
the relief wells and will have killed the well. I listen every 
morning to the briefing provided by Admiral Allen, the National 
Incident Commander, as to the progress and the status and the 
expectations as to the timing of the completion. I believe that 
his briefings are thorough and comprehensive and the estimates 
that he provides are the best authoritative view as to when 
that work will be completed.
    Mr. Bilirakis. How about the latest containment method that 
is going on right now, anything on that?
    Mr. Dempsey. Earlier today, Congressman, Admiral Allen 
provided a briefing on the placement of the containment cap. 
From my perspective, he was quite hopeful that within a matter 
of days now, we will have some clarity as to our ability to 
contain the flow from the well and will make some judgments 
about how best to ensure that that work is continued, but that 
the ultimate ending for this remains with the completion of the 
relief wells.
    Mr. Bilirakis. Okay, last question. In your testimony, you 
noted that local government best understands the needs of their 
communities. This is something of course that I strongly agree 
with. I am pleased that you indicate BP is striving better to 
integrate them into response efforts, especially considering 
the comments we heard from Mayor Hibbard about the need for 
better communication efforts with local communities. What 
changes are you making to better integrate the expertise of 
State and local officials and businesses into the response 
efforts?
    Mr. Dempsey. Congressman, I think the most powerful example 
of the adjustments that we have made as we have been learning 
throughout this process is the implementation of these deputy 
incident commanders and the branches in the States throughout 
the region. In the State of Florida in particular, we have 
established a Florida Command Post based now in Tallahassee, 
led by a unified command structure that includes the Department 
of Environmental Protection Secretary Mike Sole, a BP Incident 
Commander Mary Schaefer-Maliki and Coast Guard Commander Joe 
Boudreau. Their accountability now will be to bring much more 
closely to the local jurisdictions, the counties, and the 
municipalities, to understand the planning, the preparation, 
and the response efforts that are underway in their communities 
and ensure that we understand their concerns and that we make 
adjustments in real time for maximum protection of their 
coastlines. This development of this deputy incident command 
came directly out of the understanding and the learning that 
the operations being directed from Mobile, while very 
comprehensive, left a distance from the voices of those on the 
ground within the counties and the municipalities.
    Mr. Bilirakis. If my constituents have questions or issues, 
can we contact you directly?
    Mr. Dempsey. Congressman; yes, sir, you may. I would be 
very happy to try to address any concerns by those constituents 
based in the State of Florida, as that is my primary 
accountability.
    Mr. Bilirakis. Thank you. Thank you, Mr. Chairman, 
appreciate it and I appreciate you holding this hearing.
    Mr. Carney. Thank you, Mr. Bilirakis.
    Mr. Dempsey, one more question and we can end for the day. 
Will BP make this situation whole, fix this situation 
regardless of the cost?
    Mr. Dempsey. Mr. Chairman, I remember early in this 
exercise, early in the response, there were questions about the 
$75 million liability cap to which we suggested----
    Mr. Carney. Yes or no.
    Mr. Dempsey [continuing]. That we were not going to be 
focused on that. My answer, Mr. Chairman, is yes, BP is 
committed to bring the full resources of our company to meet 
the requirements of this response for as long as it takes.
    Mr. Carney. Thank you very much.
    I really want to thank everybody who came today, everybody 
who stuck around today. I especially want to thank the staff of 
the courthouse for going way above and way beyond. This is I 
think a very important hearing to hold, it affects New Orleans, 
it affects the region and it affects the Gulf, it affects the 
entire Nation. So your efforts on our behalf are truly 
appreciated; thank you all on the staff.
    Once again, the staff that we have on our subcommittee is 
amazing, they do a great deal of work to prepare us for this, 
for these hearings. We are not done with this, we will be 
asking questions long into the future.
    Mr. Dempsey, I imagine you will receive some questions in 
writing, I appreciate your candor and we will get back to it at 
some point.
    But right now, the subcommittee stands adjourned.
    [Whereupon at 6:01, the subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
